Case: 19-30060

document: 00515516277

Page: 1

"'ate Filed: 08/05/2020

®ntte& States Court of Appeals:
for the iftfth Circuit
No. 19-30060
Summary Calendar

A True Copy
Certified order issued Aug 05, 2020

dvj/Q W. 0{MjOl
Clerk, U.S. Court of Appeals, Fifth ( i -Ui

Willie Gross, Jr.,
Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Louisiana
ORDER
Following a jury trial, Willie Gross, Jr., Louisiana prisoner # 130126,
was convicted of second-degree murder and armed robbery; he is serving life
in prison. Now, following the district court’s denial of his 28 U.S.C. S 2254
habeas corpus petition, he moves for a certificate of appealability (COA) on
claims concerning evidentiary sufficiency, actual innocence, and ineffective
assistance of counsel.
A prisoner will receive a COA only if he “has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. S 2253(cV2); see
Miller-El v. Cockrell, 537 U.S. 322. 336 (2003); Slack v. McDaniel, 529 U.S.
4Z3, ,484 (2000). One “satisfies this standard by demonstrating that jurists

Case: 19-30060

document: 00515516277

Page: 2

^ate Filed: 08/05/2020

of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further. ” Miller-El, 537 U.S.
at 327. Because Gross has not met these standards, his COA motion is
DENIED.
/s/ James E. Graves, Jr.
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE

https://nextcorrectional.westlaw.com/Document/I4c4c05d01bl311...

Gross v. Vannoy | WestlawNext

WESTLAW
Gross v. Vannoy
United States District Court, E.D. Louisiana.

January 17, 2019

Not Reported in Fed. Supp.

2019 WL 251755

(Approx. 1 page)

2019 WL 251755
Only the Westlaw citation is currently available.
United States District Court, E.D. Louisiana.

Willie GROSS, Jr.
v.

Darrel VANNOY, Warden
CIVIL ACTION NO. 18-4871
Signed 01/16/2019
Filed 01/17/2019
Attorneys and Law Firms
Willie Gross, Jr., Angola, LA, pro se.
Darren Anthony Allemand, Jefferson Parish District Attorney's Office, Gretna, LA, for Darrel
Vannoy, Warden.
SECTION “A”(4)
ORDER
JAY C. ZAINEY, UNITED STATES DISTRICT JUDGE
*1 The Court, having considered the complaint, the record, the applicable law, the Report
and Recommendation of the Chief United States Magistrate Judge (Rec. Doc. 17), and the
Objection to the Chief Magistrate Judge's Report and Recommendation (Rec. Doc. 18),
hereby approves the Report and Recommendation of the Chief United States Magistrate
Judge and adopts it as its opinion in this matter.
Therefore,
IT IS ORDERED that Willie Gross, Jr's petition for issuance of a writ of habeas corpus filed
pursuant to 28 U.S.C. § 2254 is DENIED and DISMISSED WITH PREJUDICE.
All Citations
Not Reported in Fed. Supp., 2019 WL 251755

End of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

1 of 1

L
I THOMSON BtiUTt-RS
Thomson Reuters is'-rioCproviding legal advice

10/5/20, 8:06 PM

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

Gross v. Vannoy | WestlawNext

WESTLAW
Gross v. Vannoy
United States District Court. E.D. Louisiana.

December 28, 2018

Not Reported in Fed. Supp.

2018 WL 7075234 (Approx. 44 pages)

20x8 WL 7075234
Only the Westlaw citation is currently available.
United States District Court, E.D. Louisiana.
Willie GROSS, Jr.
v.
Darrel VANNOY, Warden
CIVIL ACTION NO. 18-4871
Signed 12/28/2018
Attorneys and Law Firms
Willie Gross, Jr., Angola, LA, pro se.
Darren Anthony Allemand, Jefferson Parish District Attorney's Office, Gretna, LA, for Darrel
Vannoy, Warden.
SECTION “A”(4)
REPORT AND RECOMMENDATION
KAREN WELLS ROBY, CHIEF UNITED STATES MAGISTRATE JUDGE
*1 This matter was referred to a United States Magistrate Judge to conduct hearings,
including an evidentiary hearing if necessary, and to submit proposed findings and
recommendations pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), and as applicable, Rule
8(b) of the Rules Governing Section 2254 Cases. Upon review of the entire record, the
Court has determined that this matter can be disposed of without an evidentiary hearing.
See 28 U.S.C. § 2254(e)(2) (2006). 1
I. Factual Background
The petitioner, Willie Gross, Jr. (“Gross"), is a convicted inmate incarcerated in the
Louisiana State Penitentiary, in Angola, Louisiana.2 In 2008, Gross and co-defendant
Calvin King were initially indicted by a Grand Jury in Jefferson Parish for aggravated battery,
second degree kidnapping, and theft. A hearing was held on September 29, 2008, after
which the state district court denied the Gross and King's motions to suppress evidence,
identifications, and statements.3 At a hearing on August 30, 2010, the state district court
confirmed its ruling.4 A trial was never held on those charges.
On February 10, 2011, Gross and co-defendant King were indicted for one count of second
degree murder and one count of armed robbery based on the same events.5 Gross and
King both entered pleas of not guilty in the case.6
The record reflects that, on November 2, 2007, Marie Abreu and Javier Sanchez, her
boyfriend, lived together at a Metairie apartment.7 Abreu, who was home alone that
evening, answered the door after hearing a knock. A man said something in English about a
Mustang and the police. Abreu, who is Hispanic, did not understand the man so she closed
the door and retrieved her car keys and cell phone. When she reopened the door, she yelled
when she saw three men with handguns. The men pointed their guns at her head, told her
to be quiet, and they all went inside the apartment.
The men sat Abreu on the sofa and then began searching the apartment. Two men went
upstairs while the third man was stationed by the door. The men asked Abreu where her
boyfriend was and told her they were looking for two kilograms of cocaine. Abreu, despite
knowing that Sanchez had gone to return movies and was then getting food at Popeye's
Chicken, told the men she did not know where Sanchez was. At some point, two men took
Abreu upstairs to continue the search.
*2 While the men were searching, Abreu attempted to call 911 and Sanchez, but the calls
did not go through. One of the men seized her cellphone and tied her to the bed with duct

1 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrecti r'n al .westlaw.com/Document/I2b65d2dO lb3911...

tape. Abreu yelled because the tape was causing her hands to swell so one of the men
removed the tape. Gross then used a telephone cord and a belt to tie up Abreu. The men
took $9,500.00 that they found in a briefcase in the bedroom and $3,000 worth of jewelry.
Abreu heard Sanchez's car alarm indicating that he had returned and then heard him enter
the apartment and say that she had a bad habit of not answering the phone. Abreu next
heard a sound like a bottle or a glass fall onto the floor. Within seconds, she heard the car
alarm again and was able to move to a window. Abreu saw Sanchez and the men leave in
Sanchez's black Ford Expedition. Abreu saw Sanchez in the back seat with one man on
each side of him and someone in the driver's seat. After they drove off in the car, Abreu
untied her legs and went to look for help.
She initially drove her Mustang to Bud's Broiler, where she worked, and then to the Harvard
Street home of Sanchez's friend, Rene Izaguirre. She hoped that Izaguirre would have some
information as to Sanchez's location. She blew the vehicle's horn when she was outside of
Izaguirre's house, but no one came outside. Abreu returned to Bud's Broiler and found a
police officer on the premises. She attempted to tell him what happened, but he did not
understand her. She returned to the apartment to get her dog and some clothes. At that
time, she saw the suspects' truck, but Sanchez's Expedition was not in the parking lot. She
'

left the apartment again, closing the door behind her.
Abreu then returned to Bud's Broiler for a third time and told Deputy Christopher Bassil of
the Jefferson Parish Sheriffs Office what happened and asked him to return with her to the
apartment. According to Deputy Bassil, Abreu seemed frightened and panicked and her
wrists were red. Their communication was limited due to a language barrier, but she was
able to tell Bassil that something happened to her boyfriend at the apartment across the
street. Bassil accompanied Abreu back to her apartment. When they arrived at the
apartment building, the suspects' vehicle was gone and the door to the apartment was open.
Bassil found Popeye's chicken that appeared to have been dropped in the doorway and a
soda was spewed across the tile floor. The apartment had been ransacked as if someone
had been looking for something. After an interpreter arrived, Bassil was able to leam that
three black males entered the apartment, restrained Abreu, and searched for two kilograms
of cocaine. According to Bassil, Abreu told him that when she was restrained upstairs, she
heard Sanchez arrive and say "why aren’t you answering the phone?” followed by "Where's
my wife?” Abreu told him that she heard a scuffle and the door close. Abreu advised that
money, jewelry, and a computer were taken.
Detective Frank Renaudin of the Criminal Investigations Bureau of the Jefferson Parish
Sheriffs Office was the first detective to arrive at the apartment and assumed the role of
lead investigator. At that time, Abreu was crying and appeared “terrified" and "hysterical."
She had abrasions to her wrists and from her calves down, which she attributed to being
taped up and bound by a telephone cord and a belt. Abreu, through a deputy who was fluent
in Spanish, told Renaudin that three armed black men had invaded the apartment, taken her
cellphone, a 9 mm pistol and cash, and abducted Sanchez.
*3 Abreu consented to a search of the apartment. Law enforcement recovered drug
paraphernalia and white powdery residue from the apartment. Pieces of duct tape which had
fingerprint evidence were recovered from the bed. Law enforcement contacted Sanchez's
cell phone carriers in an effort to activate GPS devices that may have been on his phone,
but the cell phone providers would not cooperate. Deputies went to the Harvard Avenue
address in an attempt to make contact with someone, but no contact was ever made.
That same evening, Detective Kevin Burns of the New Orleans Police Department was
notified of a homicide investigation and was dispatched to 1-510 at the Lake Forest
'Boulevard exit in New Orleans. On scene, there was the body of a male with a wound to his
torso consistent with a gunshot wound. Two spent 9 mm bullet casings, a cigarette, and a
receipt from Popeye's Chicken that showed a time of 8:39 p.m., were recovered from the
scene. Surveillance video from Popeye's Chicken showed that Sanchez went through the
drive-through alone at that time in a dark-colored or black SUV.
The New Orleans Police Department contacted the JPSO to advise that they had found a
body on the side of the road at the 1-510 exit in New Orleans East. Abreu identified Sanchez
from a picture taken at the morgue.
Abreu gave additional statements to the JPSO over the following days. A fingerprint

2 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectinnal.westlaw.com/Document/I2b65d2d01b3911...

obtained from the duct tape was positively identified as belonging to co-defendant Calvin
King. Abreu positively identified King as one of the assailants from a photographic lineup.
Subsequently, another law enforcement agency provided Renaudin with information that
Gross, who had close ties to King, fit the description of one of the suspects. Abreu was
shown a six-person lineup and identified Gross as another assailant. Fingerprints that were
recovered from a box of liquor in the apartment were identified as belonging to Gross.
Sanchez's vehicle, which had been burned, was located days later on Lynhuber in New
Orleans near 4715 Francis Drive, a residence to which Gross had connections. Ultimately,
Abreu was arrested for possession of drug paraphernalia and residual powder cocaine and
held for a number of months.
Detective Renaudin obtained arrest warrants for King and Gross. King was arrested and
found with $1600 on his person. Gross was arrested after a traffic stop in Chamber's
County, Texas on December 4, 2007. On Decembers, 2007, Detective Renaudin and
Sergeant Troy Bradberry drove to Antioch, Texas to get Gross and search his vehicle, which
appeared to look like an unmarked police car. They located New Orleans Police Department
clothing, a badge, and a blue strobe light in the vehicle. Renaudin advised Gross of his
rights. They drove Gross back to Jefferson Parish arriving at approximately midnight on
December 6, 2007. Upon their return, Gross advised that he wished to give a statement. He
was advised of his rights and initialed a right of arrestee form waiving them and gave a
taped statement that was played for the jury at trial.
According to his statement, King contacted Gross and asked him to go with him and King’s
cousin "Ben” to get a shipment of cocaine. The three men met at Gross's relative’s house
on Francis Drive in New Orleans East on November 2, 2007. They drove to the victim's
apartment in Gross's truck. Gross knocked on the door while King and Ben waited behind a
wall. When Abreu opened the door, Gross told her he had hit her car. When she came
outside, King, who was armed with a 40 caliber Glock, and Ben, who had an Oozie type
gun, escorted her back into the apartment. Gross pulled his truck to the back and then
entered the house. They searched the house looking for money and drugs. During the
search, King brought Abreu upstairs and taped her to the bed using duct tape because she
would not be quiet. When Gross went upstairs, he saw Abreu crying and complaining that
her blood was being cut off by the tape so he cut the tape off and tied her up loosely with a
belt and an extension cord.
*4 Gross heard Ben, who was downstairs, yell, “He in here. I got him.” King and Gross went
downstairs and found Sanchez with Ben. King asked Sanchez where the “dope" was and
Sanchez initially claimed that he did not know where the drugs were. Eventually, Sanchez
told King that the drugs were at a residence on Harvard Street. The men took money and a
9 millimeter gun from the residence. King and Ben put Sanchez in the Expedition and Gross
got in the other truck and followed them to the house on Harvard Street. When they arrived
at the Harvard Street residence, a Hispanic man was in the driveway, so they left. King said,
"Let's go. We going take care of this business.”
According to his statement, Gross followed King and Ben to New Orleans East, exited on
Downman Road, and went back to his relative's house on Francis Drive while King and Ben
continued on to New Orleans East. Approximately thirty minutes later, King and Ben met
Gross at the Francis Drive residence. Neither Sanchez nor the Expedition were with them.
King gave Gross $2,000.00 and said, “We handled that," which Gross interpreted to mean
that they had killed Sanchez. Gross said King and he had discussed beforehand that they
were going to go inside the apartment to retrieve the money and the drugs and would wait
for Sanchez to come home. He claimed, however, that they did not discuss killing Sanchez.
Detective Regina Williams with the New Orleans Police Department questioned Gross twice
at the Jefferson Parish Detective's Bureau on December 6, 2007. The first time Gross
advised that he did not wish to make a statement. Williams returned when she was advised
by the JPSO that Gross wanted to make a statement. According to Williams, Gross said
that he, King and Ben went to the apartment to get cocaine and money. He admitted that
they knocked on the door and told Abreu that they hit her vehicle. Gross further admitted
that they were armed with guns, forced themselves into the residence, tied up Abreu, and
searched the apartment for drugs. According to Gross, they left with money. Gross told
Williams that that on the drive to New Orleans East, he got off at Downman Road while Ben
and King kept going east on 1-10 with Sanchez. King and Ben later went to Gross's
residence on Francis Street and told him that they had “taken care of Sanchez.

3 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrectinnaI. westlaw.com/Document/I2b65d2d01b3911...

Gross testified at trial and explained that he and King sold drugs together and that Sanchez
and Izaguirre were suppliers. Gross claimed to have attended a party with Sanchez and
Abreu and that he had previously been to their apartment. He claimed that on November 2,
2007, he and King went to Sanchez's apartment to buy four kilograms of cocaine for
$84,000.00. Izaguirre was present. They weighed the cocaine which was packaged on the
table. Abreu began cooking it to increase its volume. Sanchez left the apartment to get
some “runners” who would pick up cars with secret compartments to transport the drugs.
After Abreu finished cooking the cocaine, they determined that it was half a kilogram short
and began searching the apartment. Abreu attempted to call someone on her phone and
Izaguirre took her phone away. When Abreu tried to run, King decided to tape her up.
Ultimately, Gross cut the tape off of Abreu and tied her up with a belt and a telephone cord.
In the meantime, King and Izaguirre worked out a deal. Izaguirre released Abreu and told
her to return $9000 of the money. Abreu retrieved the money from upstairs and gave it to
King. Sanchez and two runners returned as King and Gross were preparing to leave. Abreu,
who was crying, spoke to Sanchez in Spanish. Sanchez and Izaguirre were arguing when
Gross and King left in King's Monte Carlo. Gross went to his home in Baton Rouge. The
following day, he learned that there was a warrant out for his arrest so he went to Houston to
“regroup." Gross claimed he had hired an attorney and was on his way to Louisiana to turn
himself in when he was arrested in Texas.
*5 Gross claimed that Renaudin and Bradberry would not allow him to sleep during the
drive back to Louisiana. He claimed that Renaudin slapped him. He testified that they pulled
the vehicle over, let him out and took off the shackles, and told him to run. Gross claimed
that, when he refused to run, they placed him back into the vehicle, slapped him again, and
called him derogatory names. Gross testified that when he was brought to the Jefferson
Parish Detective Bureau, he was slapped, spit on and handcuffed to the floor. He claimed
that his recorded statement was not true and that Renaudin, Bradberry and Williams told
him what to say.
Gross filed numerous pro se pretrial motions.8 The Louisiana Fifth Circuit granted Gross's
writ applications and ordered the state trial court to rule on the motions at or before the
beginning of trial if it had not already done so.9 There is no record that any hearing
regarding the motions was held.
Gross was tried by a jury on November 15 through 17, 2011, and was found guilty as
charged.10 On December 9, 2011, the Trial Court sentenced Gross to life imprisonment at
hard labor without the benefit of parole, probation, or suspension of sentence as to the
second degree murder conviction, and forty-five years at hard labor as to the armed robbery
conviction, both sentences to be served concurrently.11
On direct appeal, Gross's appellate counsel asserted two errors12: (1) the evidence was
insufficient to sustain Gross's second degree murder conviction; and (2) the Trial Court
erred in limiting the defense's presentation of their theory of defense. Gross filed a pro se
brief in which he asserted two errors13: (1) the Trial Court erred in denying his motion to
suppress his statement; and (2) the Trial Court erred in failing to produce the transcript of
the hearing during which some of his pro se pretrial motions were ruled upon and further
erred in failing to rule on his remaining motions.
Gross sought to supplement the appellate record with a transcript from a hearing he alleged
occurred on November 14, 2011, at which time his pro se motions were ruled on.14 The
court reporter certified that nothing was taken in open court on November 14, 2011.15 The
Louisiana Fifth Circuit denied Gross's related writ application finding that there was no basis
to suspend the appeal as there was no transcript for the date specified.16 The Louisiana
Fifth Circuit affirmed the convictions finding no merit in the issues raised.17
*6 On October 25, 2013, the Louisiana Supreme Court denied Gross's related writ
application without stated reasons.18 His conviction was final under federal law ninety (90)
days later, on January 23, 2014, when he did not file a writ application with the United States
Supreme Court. Off v. Johnson, 192 F.3d 510, 513 (5th Cir. 1999) (period for filing for
certiorari with the United States Supreme Court is considered in the finality determination
under 28 U.S.C. § 2244(d)(1)(A)); U.S. Sup. Ct. Rule 13(1).
On April 4, 2014, Gross submitted pro se to the Trial Court an application for post-conviction

4 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrectional. westlaw.com/Document/I2b65d2dO lb3911...

relief and brief in which he raised the following grounds for relief:19 (1) the State knowingly
and willfully seized and destroyed exculpatory evidence material to his defense: (2) his
conviction was obtained in violation of double jeopardy; (3) the State withheld exculpatory
evidence; (4) the State knowingly presented perjured testimony and false evidence at trial;
(5) there was a variance between the indictment and the jury instructions; (6) the Trial Court
gave an erroneous jury charge; (7) the Trial Court erred in denying the defense's request for
the jury to view the crime scene; (8) he was denied the right to an adequate appeal when
the Trial Court suppressed the transcript of a hearing that took place on November 14, 2011,
during which his pro se pretrial motions were denied; (9) ineffective assistance of trial
counsel in failing to file pretrial motions, investigate the case, make preparations for the jury
to view the crime scene, and object to erroneous jury instructions; and (10) prosecutorial
misconduct as a result of the prosecutor threatening and intimidating a defense witness.
Gross filed a supplemental application in which he amended claim nine to include
ineffective assistance of counsel in failing to raise the issue of corpus delicti and raised the
following additional grounds for relief20: (11) his conviction was obtained in violation of the
constitution in light of newly discovered evidence from co-defendant King's trial which
resulted in the grant of a new trial for King; and (12) the Trial Court erred in finding that the
State proved the corpus delicti of the crime.
On July 28, 2014, the State filed a response claiming that claims one, two, five, six, seven,
ten, eleven, and twelve were procedurally barred.21 Gross filed an opposition to the State's
response.22 On August 15, 2014, the Trial Court found that claims one, two, five, six,
seven, ten and twelve were procedurally barred and claim eleven failed to state a claim
under La. Code Crim. P. art. 928 and ordered the State to file a response addressing the
merits of claims three, four, eight and nine.23
*7 Gross sought writs and the Trial Court granted the State’s request for a stay pending the
writ disposition.24 On November 4, 2014, the Louisiana Fifth Circuit Court of Appeal
affirmed the Trial Court's rulings that the claims were procedurally barred but remanded the
case for the Trial Court to consider the merits of claim eleven.25 The Trial Court ordered the
State to respond on the merits as to that claim.26 Both Gross and the State sought review
from the Louisiana Supreme Court.27 On June 1, 2015, the Louisiana Supreme Court
denied relief and remanded the case instructing the Trial Court to apply the minimum
standard of relief in State v Pierre, 125 So. 3d 403, 409 (La. 2013), in addressing claim
eleven.28
In the interim, Gross amended claim nine for the second time to include a claim of
ineffective assistance of counsel for failing to object to structural error committed by the Trial
Court in instructing the jury.29 The State filed its response to the remaining claims on July
24, 2015.30 Gross filed a supplement to claim eleven and a traverse to the State's
response.31
On February 17, 2016, the Trial Court found no merit to Gross's remaining claims.32 “On
May 5, 2016, the Louisiana Fifth Circuit denied Gross's writ application finding no error in
the Trial Court's denial of Gross's application for post-conviction relief.”33 On September
29, 2017, the Louisiana Supreme Court denied Gross's related writ application finding he
had failed to show he received ineffective assistance of counsel under the standard of
Strickland v. Washington, 466 U.S. 668 (1984), and he failed to satisfy his post-conviction
burden of proof as to his remaining claims citing La. Code Crim. P. art. 930.2 and State v.
Pierre, 125 So.3d 403 (La. 2013).34
II. Federal Habeas Petition
*8 On June 1,2018, after correction of certain deficiencies, the clerk of this Court filed
Gross's petition for federal habeas corpus relief in which he asserts the following grounds
for relief35: (1) insufficient evidence supported his second degree murder conviction; (2) he
is actually innocent and his conviction cannot stand in light of newly discovered evidence of
Abreu's inconsistent testimony at King's trial; (3) newly discovered evidence that
demonstrates that the detectives coerced Abreu to identify Gross as an assailant proves
that he is actually innocent; (4) denial of the right to present a defense; (5) the Trial Court
erred in admitting his involuntary statement and in failing to rule on some of his pretrial
motions; (6) his convictions violate double jeopardy; (7) the State withheld exculpatory

5 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

evidence; (8) the State knowingly presented perjured testimony and false evidence; (9)
there was an unconstitutional variance between the indictment and the jury instructions; (10)
erroneous jury instructions; (11) the Trial Court erred in denying the defense's request to
allow the jury to view the crime scene; (12) he was denied the right to appellate review
based on the alleged “suppression" of a hearing transcript; (13) ineffective assistance of
counsel for failing to file pretrial motions, investigate the case, make arrangements for the
jury to view the crime scene, object to jury instructions, and raise corpus delicti; (14)
prosecutorial misconduct in threatening a defense witness; and (15) jail officials violated his
constitutional rights when they seized and destroyed his legal materials.
The State filed a response in opposition to the petition asserting that Gross timely filed his
federal petition.36 The State asserts that seven claims are procedurally barred, and the
remaining claims can be dismissed as meritless or not cognizable on federal habeas review.
III. General Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA"), Pub. L. No. 104-132,
110 Stat. 1214,37 applies to this petition, which is deemed filed in this Court under the
federal mailbox rule on May 10, 2018.38 The threshold questions on habeas review under
the amended statute are whether the petition is timely and whether the claim raised by the
petitioner was adjudicated on the merits in state court; i.e., the petitioner must have
exhausted state court remedies and the claims must not be in "procedural default.” Nobles v.
Johnson, 127 F.3d 409, 419-20 (5th Cir. 1997) (citing 28 U.S.C. § 2254(b), (c)).
The State concedes Gross timely filed his federal petition and exhausted his claims. The
State contends that seven claims are in procedural default and that Gross's remaining
claims can be dismissed as meritless or not cognizable on federal habeas review.39
IV. Procedural Default (Claim Nos. 5 (in part), 6, 9.10. 11. 14 and 151
*9 The State recognizes that seven issues raised by Gross are in procedural default, having
been dismissed by the Louisiana Supreme Court as procedurally barred from review. These
claims are the Trial Court failed to rule on some of his pro se pretrial motions, his convictions
violate double jeopardy, there was a variance between the indictment and jury instructions,
the jury instructions were erroneous, the Trial Court erred in denying the defense's request
to view the crime scene, prosecutorial misconduct in threatening a defense witness, and the
jail officials' destruction of Gross's legal materials violated his constitutional rights.
Generally, a federal court will not review a question of federal law decided by a state court if
the decision of that state court rests on a state law ground that is both independent of the
merits of the federal claim and adequate to support that judgment. Coleman v. Thompson,
501 U.S. 722, 731-32 (1991); Glover v. Cain, 128 F.3d 900, 902 (5th Cir. 1997); Amos v.
Scott, 61 F.3d 333, 338 & n.15 (5th Cir. 1995) (citing Harris v. Reed, 489 U.S. 255, 260, 262
(1989)). The “independent and adequate state law” doctrine applies to both substantive and
procedural grounds and affects federal review of claims that are raised on either direct or
post-conviction review. Coleman, 501 U.S. at 731-32; Amos, 61 F.3d at 338. This type of
procedural default will bar federal court review of a federal claim raised in a habeas petition
when the last state court to render a judgment in the case has clearly and expressly
indicated that its judgment is independent of federal law and rests on a state procedural bar.
Harris, 489 U.S. at 263; Glover, 128 F.3d at 902.
Gross raised on direct appeal his claim that the Trial Court failed to rule on some of his pro
se pretrial motions. The Louisiana Fifth Circuit found that any pretrial motions that were not
ruled on prior to trial were waived citing State v. Alexander, 740 So.2d 628 (La. App. 5th Cir.
1998). It further found that the Trial Court was not required to entertain the pro se motions
as Gross was represented by counsel. The Louisiana Supreme Court denied relief without
stated reasons. See Ylst v. Nunnemaker, 501 U.S. 797, 802 (1991) (when the last state
court judgment does not indicate whether it is based on procedural default or the merits of a
federal claim, the federal court will presume that the state court has relied upon the same
grounds as the last reasoned state court opinion).
Gross raised in his application for post-conviction relief his claims that his convictions
violated double jeopardy, there was a variance between the indictment and the jury
instructions, the jury instructions were erroneous, the Trial Court erred in denying the
defense's request to view the crime scene, the prosecutor threatened and intimidated a
witness, and jail officials destroyed exculpatory evidence. The Trial Court found that Gross's

6 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

double jeopardy claim as well as those claims relating to the Trial Court's denial of the
defense's request for the jury to view the crime scene, and the prosecutor's alleged
threatening and intimidation of a witness were procedurally barred by La. Code Crim. P. art.
930.4(C) for failure to raise the issues on appeal. The Trial Court found that Gross's claims
relating to the jury instructions were procedurally barred by La. Code Crim. P. art. 930.4(B).
The Trial Court found Gross's claim relating to the destruction of his legal materials by the
jail officials was procedurally barred by both La. Code Crim. P. arts. 930.4(A) and 930.4(B).
The Louisiana Fifth Circuit agreed with the Trial Court that all the claims were procedurally
barred. In doing so, the Louisiana Fifth Circuit found that Gross's double jeopardy and jury
instructions claims were procedurally barred by La. Code Crim. P. art. 930.4(C). It found that
Gross inexcusably failed to raise on appeal his claim that the prosecutor threatened a
witness and the claim was therefore procedurally barred by La. Code Crim. P. art. 930.4(C).
While it referred to art. 930.4(C), it specifically stated that it "agreed with the trial court that
these claims are procedurally barred." As noted, the Trial Court specially referred to art.
930.4(B) in finding Gross's jury instruction claims procedurally barred. Finally, the Louisiana
Fifth Circuit agreed with the Trial Court that Gross's claim that the jail officials destroyed his
legal materials was barred by La. Code Crim. P. 930.4. The Louisiana Supreme Court
denied writs without stated reasons. See Y/sf, 501 U.S. at 802.
*10 The Court must consider whether the bar to review relied upon by the Louisiana
Supreme Court prohibits consideration of Gross's claims that the Trial Court erred in failing
to rule on some of his pro se pretrial motions, his convictions violate double jeopardy,
erroneous jury instructions, the Trial Court erred in refusing to allow the jurors from viewing
the crime scene, the prosecutor threatened and intimidated a witness, and the jail officials
destroyed his legal materials on federal habeas corpus review. As discussed above, for a
state-imposed procedural bar to prevent review by this federal habeas court, the bar must
be both independent and adequate.
A. Independent and Adequate State Ground
Generally, a federal court will not review a question of federal law decided by a state court if
the decision of that state court rests on a state law ground that is both independent of the
merits of the federal claim and adequate to support that judgment. Coleman v. Thompson,
501 U.S. 722, 731-32, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991); Glover v. Cain, 128 F.3d
900, 902 (5th Cir. 1997); Amos v. Scott, 61 F.3d 333, 338 & n.15 (5th Cir. 1995) (citing Harris
v. Reed, 489 U.S. 255, 260, 262, 109 S.Ct. 1038, 103 L.Ed.2d 308 (1989)). The
‘independent and adequate state ground" doctrine applies to both substantive and
procedural grounds and affects federal review of claims that are raised on either direct or
post-conviction review. Coleman, 501 U.S. at 731-32,111 S.Ct. 2546; Amos, 61 F.3d at 338.
This type of procedural default will bar federal court review of a federal claim raised in a
habeas petition when the last state court to render a judgment in the case has clearly and
expressly indicated that its judgment is independent of federal law and rests on a state
procedural bar. Harris, 489 U.S. at 263, 109 S.Ct. 1038; Glover, 128 F.3d at 902. Federal
review is barred even if the state court alternatively address the merits. See Busby v. Dretke,
359 F.3d 708, 718 (5th Cir. 2004) (citing Harris, 489 U.S. at 264 n.10, 109 S.Ct. 1038).
A dismissal is independent of federal law when the last state court "clearly and expressly"
indicated that its judgment rests on a state procedural grounds that bars review of the claim.
Amos, 61 F.3d at 338. The state-law ground may be a substantive rule dispositive of the
case or a procedural bar to adjudication of the claim on the merits. See Wainwright v. Sykes,
433 U.S. 72, 81-82, 90, 97 S.Ct. 2497, 53 L.Ed.2d 594 (1977). The question of the
adequacy of a state procedural bar is itself a federal question. Beard v. Kindler, 558 U.S. 53,
60, 130 S.Ct. 612, 175 L.Ed.2d 417 (2009) (citing Lee v. Kemna, 534 U.S. 362, 375, 122
S.Ct. 877,151 L.Ed.2d 820 (2002)). To be adequate, the state procedural rule must be
strictly or regularly followed and evenhandedly applied to the majority of similar cases.
Walkerv. Martin, 562 U.S. 307, 315-17, 131 S.Ct. 1120, 179 L.Ed.2d 62 (2011); Glover, 128
F.3d at 902. A state procedural rule, however, "can be 'firmly established' and 'regularly
followed,'—even if the appropriate exercise of discretion may permit consideration of a
federal claim in some cases but not others." Beard, 558 U.S. at 60, 130 S.Ct. 612 (citations
omitted).
In evaluating the adequacy of the rules applied to bar a petitioner's claim, a federal habeas
court does not sit to correct errors made by state courts in interpreting and applying state
law. Narvaiz v. Johnson, 134 F.3d 688, 695 (5th Cir. 1998) (citing Estelle v. McGuire, 502

7 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https ://nextcorrection al. westlaw.com/Document/I2b65d2dO lb3911...

U.S. 62, 67-68 (1991)); accord Turner v. Johnson, 46 F. Supp. 2d 655, 674 (S.D. Tex.
1999). Rather, a federal court's analysis focuses on due process considerations, and due
process requires only that the Court grant the writ when the errors of the state court make
the underlying proceeding fundamentally unfair. See Neyland v. Blackburn, 785 F.2d 1283,
1293 (5th Cir. 1986) (citing McAfee v. Procunier, 761 F.2d 1124, 1126 (5th Cir. 1985) and
Lane v. Jones, 626 F.2d 1296 (5th Cir. 1980)). In keeping with this, a state procedural rule
that is applied arbitrarily or in an unexpected manner may be considered inadequate to
prevent federal review. Martin v, Maxey, 98 F.3d 844, 847 (5th Cir. 1996); Prihoda v.
McCaughtry, 910 F.2d 1379, 1383 (7th Cir. 1990).

*11A federal court may not second-guess a state court's rule of procedure,
but must evaluate whether the rule was actually applicable on the particular
facts of the case. Otherwise, state courts could disregard federal rights with
impunity simply by using the word “waived."

United States ex rel. Bradley v Clark, No. 99-C-1785, 2002 WL 31133094, at *4 n.2 (N.D. III.
July 18, 2002).
For this reason, when state courts apply a procedural bar that has no foundation in the
record or basis in state law, the federal courts need not honor that bar. Davis v. Johnson,
No. 00CV684—Y, 2001 WL 611164, at *4 n.10 (N.D. Tex. May 30, 2001); see also Johnson v.
Lensing, No. 99-0005, 1999 WL 562728, at *4 (E D. La. July 28, 1999) (Berrigan, J.)
(finding La. Code Crim. P art. 930.8 bar was not adequate because it was not properly
applied under the circumstances of the case); Poree v. Cain, No. 97-1546, 1999 WL
518843, at *4 (E.D. La. July 20, 1999) (Mentz, J.) (finding art. 930.8 was not adequate to bar
review because it was misapplied). It is not, however, within the federal court's province to
disagree with the application of the bar; it is only to determine its adequacy. Lee v. Cain, No.
03-2626, 2004 WL 2984274, at *1 n.2 (E.D. La. Dec. 6, 2004) (Vance, J.) (addressing La.
Code Crim. P. art. 930.3 as applied to ineffective assistance of counsel claim). Thus, where
such foundation and basis does exist, as it does in the case of this issue, the bar must
stand.
In this case, the Louisiana Fifth Circuit relied on State v. Alexander to find that Gross had
not properly preserved for appeal the issue of the Trial Court's failure to rule on some of his
pro se pretrial motions due to his failure to object to proceeding to trial without a ruling.
Under Louisiana law, if a defendant fails to object to the trial court's failure to rule on a
motion prior to trial, the motion is considered waived. State v. Holmes, 5 So.3d 42 (La.
2008); State v. Clay, 248 So.3d 665, 667 n. 2 (La. App. 5th Cir. 2018); States v. Funes, 87
So.3d 134, 135 n.3 (La. App. 5th Cir. 2012); State v. Fletcher, 836 So.2d 557, 559 (La. App.
5th Cir. 2002); Alexander, 720 So.2d at 86. This Louisiana procedural rule is independent
and adequate to bar federal review of Gross's claim. See Powell v. Hooper, Civ. Action No.
17-21232017 WL 8786863, at *8 (E.D. La. Dec. 5, 2017), report and recommendation
adopted, 2018 WL 1739210 (E.D. La. April 11,2018).
The Louisiana Fifth Circuit approved the denial of relief of the other six claims based on
state statutory rules to bar review of Gross's claims, citing La. Code Crim. P. arts. 930.4(B)
and (C). Article 930.4(B) prohibits review of a claim that was known and inexcusably not
raised in the proceedings leading to the conviction. Article 930.4(C) similarly prohibits review
of a claim that was inexcusably not pursued on direct appeal.
Under the circumstances of this case, the provisions of Article 930.4(B) and (C) are
independent and adequate to bar federal review of Gross's claims. Bennett v. Whitley, 41
F.3d 1581 (5th Cir. 1994) (Article 930.4 is an independent and adequate state procedural
rule); Coleman v. Cain, No. 07-3655, 2014 WL 348541, at *11 (E.D. La. Jan. 31, 2014)
(Milazzo, J.) (Article 930.4(B) & (C)); Johnson v. Cain, No. 12-0621,2012 WL 5363327, at
*4 (E.D. La. Oct. 30, 2012) (Lemelle, J.) (Article 930.4(C)); Perez v. Cain, No. 12-1331,
2012 WL 4815611, at *1 (E.D. La. Oct. 10, 2012) (Barbier, J.) (Article 930.4(C)); see also,
Harris, 489 U.S. at 263; Glover, 128 F.3d at 902.
*12 The state courts' rulings were based on Louisiana law setting forth the procedural
requirements for the preservation and presentation of post-conviction claims. See, Fisher,
169 F.3d at 300 (state courts' clear reliance on state procedural rule is determinative of the
issue). The state courts' reasons for dismissal of Gross's claims were therefore

8 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

independent of federal law and adequate to bar review of his claims in this federal habeas
court.
For the foregoing reasons, the procedural bars imposed on Gross's arguments regarding
the Trial Court's failure to rule on some of his pro se pretrial motions (claim five in part),
double jeopardy (claim six), erroneous jury instructions (claims nine and ten), the Trial
Court's denial of the defense's request to allow the jury to view the crime scene (claim
eleven), the denial of the right to present witnesses based on the prosecution's threatening
of a witness (claim fourteen), and the jail officials' destruction of legal materials (claim
fifteen) are supported by the record and are adequate to foreclose review by this federal
court. Because the Louisiana Supreme Court’s decisions rested on independent and
adequate state rules of procedural default, this Court will not review these claims unless
Gross has established one of the following exceptions.
B. Cause and Prejudice
A federal habeas petitioner may be excluded from the procedural default rule only if he can
show “cause" for his default and "prejudice attributed thereto,” or demonstrate that the
federal court's failure to review the defaulted claim will result in a “fundamental miscarriage
of justice." Glover, 128 F.3d at 902 (citing Coleman, 501 U.S. at 731-32); Amos, 61 F.3d at
338-39 (citing Harris, 489 U.S. at 262); see Engle v. Isaac, 456 U.S. 107, 128 8 n.33
(1982).
To establish cause for a procedural default, a petitioner must demonstrate that some
objective factor external to the defense impeded his efforts to comply with the state's
procedural rule. Murray v. Carrier, All U.S. 478, 488 (1986). The mere fact that a petitioner
or his counsel failed to recognize the factual or legal basis for a claim, or failed to raise the
claim despite recognizing it, does not constitute cause for a procedural default. Id. at 486.
In this case, Gross has not offered any cause for the default which would excuse the
procedural bar imposed by the Louisiana Supreme Court. Rather, he simply states that the
claims were “best brought on post conviction."40 The Court's review of the record does not
support a finding that any factor external to the defense prevented Gross from raising the
claims in a procedurally proper manner. The record also does not reflect any action or
inaction on the part of the State which prevented him from doing so.
“The failure to show 'cause’ is fatal to the invocation of the 'cause and prejudice' exception,
without regard to whether 'prejudice' is shown." Hogue v. Johnson, 131 F.3d 466,497 (5th
Cir. 1997) (citing Engle, 456 U.S. at 134 n.43). Having failed to show an objective cause for
his default, the Court need not determine whether prejudice existed, and petitioner has not
alleged any actual prejudice. Ratcliff v. Estelle, 597 F.2d 474, 477 (5th Cir. 1979) (citing
Lumpkin v. Ricketts, 551 F.2d 680, 681-82 (5th Cir. 1977)).
Gross's defaulted arguments are therefore procedurally barred from review by this federal
habeas corpus court. See Trest v. Whitley, 94 F.3d 1005, 1008 (5th Cir. 1996) (finding
habeas review precluded when petitioner neglected to allege actual prejudice and cause of
failure to comply with state procedural rule concerning time restriction on filing for state post­
conviction relief), vacated on other grounds, 522 U.S. 87 (1998).41
C. Fundamental Miscarriage of Justice
*13 Gross may avoid this procedural bar only if a fundamental miscarriage of justice will
occur if the merits of his claim are not reviewed. Hogue, 131 F.3d 497 (citing Sawyer v.
Whitley, 505 U.S. 333, 339 (1992)). To establish a fundamental miscarriage of justice,
Gross must provide this court with evidence that would support a “colorable showing of
factual innocence." Kuhlmann v. Wilson, All U.S. 436, 454 (1986); accord Murray, All U.S.
at 496; Glover, 128 F.3d at 902. To satisfy the factual innocence standard, Petitioner must
establish a fair probability that, considering all of the evidence now available, the trier of fact
would have entertained a reasonable doubt as to the defendant's guilt. Campos v. Johnson,
958 F. Supp. 1180, 1195 (W.D. Tex. 1997) (footnote omitted); see Nobles, 127 F.3d at 423
n.33 (actual innocence factor requires a showing by clear and convincing evidence that, "but
for constitutional error, no reasonable factfinder would have found the applicant guilty of the
underlying offense."). “It is important to note in this regard that 'actual innocence’ means
factual innocence, not mere legal insufficiency." Bousley v. United States, 523 U.S. 614,
6324 (1998) (citing Sawyer v. Whitley, 505 U.S. 333, 339 (1992)). When the petitioner has
not adequately asserted his actual innocence, his procedural default cannot be excused
under the “fundamental miscarriage of justice” exception. Glover, 128 F.3d at 903.

9 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

The Court recognizes that Gross appears to raise claims of actual innocence (claims two
and three) as independent substantive grounds for habeas relief. However, the United
States Supreme Court has not recognized any free-standing actual innocence claim to
support habeas relief. McQuiggin v. Perkins, 569 U.S. 383, 392, 133 S.Ct. 1924, 185
L.Ed.2d 1019 (2013) (citing Herrera, 506 U.S. at 404-05, 113 S.Ct. 853); Coleman v. Thaler,
716 F.3d 895, 908 (5th Cir. 2013); Burton v. Stephens, 543 F.App'x 451, 458 (5th Cir. 2013)
(citing McQuiggin, 569 U.S. at 392, 133 S.Ct. 1924 and Herrera, 506 U.S. at 400, 113 S.Ct.
853); In re Warren, 537 F. App'x 457 (5th Cir. 2013). The Supreme Court, however, has
recognized that a credible showing of actual innocence may act as a gateway to overcome a
procedurally defaulted or untimely filed federal habeas corpus claim. McQuiggin, 569 U.S. at
392, 133 S.Ct. 1924. Because there is no underlying constitutional violation in Gross's
actual innocence claims (claims two and three), they are not cognizable.
Under a broad reading, Gross may intend for the Court to consider his arguments as related
to the actual innocence exception to the state imposed procedural bar to review of his
federal habeas claims that the Trial Court failed to rule on some of his pretrial motions,
violation of double jeopardy, erroneous jury instructions, denial of request to allow the jurors
to view the crime scene, prosecutorial misconduct in threatening a witness, and destruction
of legal materials. Nevertheless, Gross has not met the rigorous burden of proof imposed
under the actual innocence exception to excuse his procedural default of those claims.
The actual innocence standard encompasses three principles. First, a “credible [actual
innocence] claim requires new reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence—that was not
presented at trial.’ House v. Bell, 547 U.S. 518, 537, 126 S.Ct. 2064, 165 L.Ed.2d 1 (2006)
(quoting Schlup v. Delo, 513 U.S. 298, 324, 115 S.Ct. 851, 130 L.Ed.2d 808 (1995)). The
United States Fifth Circuit Court of Appeals has held that evidence is "not 'new' [when] it
was always within the reach of [petitioner's] personal knowledge or reasonable
investigation.” Moore v. Quarterman, 534 F.3d 454, 465 (5th Cir. 2008). Second, the court's
analysis is not limited to the new evidence presented by a petitioner in support of his actual
innocence claim. Id. “The habeas court must consider all the evidence, old and new,
incriminating and exculpatory, without regard to whether it would necessarily be admitted
under rules of admissibility that govern at trial.” Bell, 547 U.S. at 538, 126 S.Ct. 2064
(quoting Schlup, 513 U.S. at 327, 115 S.Ct. 851). In doing so, the court “must assess the
probative force of the newly presented evidence in connection with the evidence of guilt
adduced at trial.” Schlup, 513 U.S. at 331-32, 115 S.Ct. 851. Third, the “demanding” actual

i

innocence standard "permits review only in the extraordinary case.’ Bell, 547 U.S. at 538,
126 S.Ct. 2064 (citation omitted); see also Fairman v. Anderson, 188 F.3d 635, 644 (5th Cir.
1999) (’[0]ur precedent confirms that the mountain ... a petitioner must scale in order to
prove a fundamental miscarriage claim is daunting indeed.”).
*14 In this case and under these standards, Gross has not referenced or presented any
reliable new evidence of his factual innocence or any evidence that would convince a court
that no juror would have found him guilty. Accord, Golmon v. Director, TDJC-CID, No.
13CV325, 2013 WL 3724838, at *1 (E.D. Tex. Jul. 15, 2013). He presents no “exculpatory
scientific evidence” or “critical physical evidence.” Rather, Gross essentially argues that
Abreu's credibility was negated by the “newly discovered evidence” of her testimony at the
trial of co-defendant King, who was granted a new trial, which he contends is inconsistent
with her statements given to law enforcement, her testimony given at a deposition, and her
testimony at Gross's trial.42 He further argues that there is evidence that law enforcement
coerced Abreu to identify him as an assailant. He points to Abreu's admission at her
deposition that she told an attorney that, when she was shown the six person line up, law
enforcement told her to identify Gross, although Abreu explained that she made such a
statement because she was confused and wanted to be released from jail.
To the extent that Gross relies on Abreu's testimony from a deposition, that evidence is not
new. Rather, defense counsel for Gross and Gross were both present at the deposition.43
As for the alleged inconsistencies in Abreu's testimony King's trial, that evidence does not
satisfy the exacting standard for proving actual innocence for which a petitioner must
demonstrate that it is more likely than not that no reasonable juror would have convicted him
in light of the new evidence. Schlup, 513 U.S. at 327 (emphasis added). Contrary to his
argument that ”[t]he only evidence regarding the conditions under which Mr. Sanchez left the
apartment was Maria Abreu's testimony at trial,”44 there was other evidence sufficient for a
reasonable jury to find that that an aggravated kidnapping occurred. Significantly, Gross

10 of 37

10/5/20, 7:59 PM

https ://nextcorrectional.westlaw.com/Document7I2b65d2dO lb3911...

Gross v. Vannoy | WesdawNext

stated in his recorded statement to Bradberry and Renaudin, which was played for the jury,
that upon Sanchez's return to the apartment, he, King and the other assailant forced
Sanchez into the Expedition at gunpoint.45 Gross specifically explained, “They, they still
armed. They, they have him in the uh, they was putting him in the truck” and “he was
actually getting in the truck, it was, you know, one was behind him, you know, with a gun,
and told him to get in. He did. He got in the truck.”46 During that statement, Gross initially
admitted that he was in the backseat with Sanchez but then claimed that he followed them
in his truck.47 Abreu's testimony was consistent with Gross's statements to law
enforcement that Gross, King and another assailant were armed when they went to
Sanchez's apartment to rob him and that they forced their way into the apartment and
restrained Abreu while they searched for drugs. There was further evidence that Sanchez
had purchased chicken from Popeye's Chicken shortly before the incident and that the
chicken and a soda were found strewn across the floor of the apartment.48 This evidence
was consistent with Abreu's testimony that, upon Sanchez's return, she heard a crash and
seconds later saw his vehicle leave with four people in it.49 Sanchez's body was discovered
later than evening and his vehicle was later found burned.50
*15 Gross's attack on the credibility of Abreu along with his argument of innocence were
presented to the jury and the state courts and resolved against him. For these reasons, he
has failed to overcome the procedural bar to his claims, and his fifth (in part), sixth, ninth,
tenth, eleventh, fourteenth and fifteen claims must be dismissed with prejudice as
procedurally barred.
V. Standards for a Merits Review
The AEDPA standard of review is governed by § 2254(d) and the Supreme Court's decision
in Williams v. Taylor, 529 U.S. 362 (2000). It provides different standards for questions of
fact, questions of law, and mixed questions of fact and law.
A state court's determinations of questions of fact are presumed correct and the Court must
give deference to the state court findings unless they were based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding. 28
U.S.C. § 2254(d)(2) (2006); see Hill v. Johnson, 210 F.3d 481,485 (5th Cir. 2000). The
amended statute also codifies the "presumption of correctness" that attaches to state court
findings of fact and the “clear and convincing evidence” burden placed on a petitioner who
attempts to overcome that presumption. 28 U.S.C. § 2254(e)(1) (2006).
A state court's determination of questions of law and mixed questions of law and fact are
reviewed under § 2254(d)(1), as amended by the AEDPA. The standard provides that
deference be given to the state court's decision unless the decision is “contrary to or
involves an unreasonable application of clearly established federal law” as determined by
the United States Supreme Court. Hill, 210 F.3d at 485. The “critical point" in determining the
Supreme Court rule to be applied “is that relief is available under § 2254(d)(1)’s
unreasonable-application clause if, and only if, it is so obvious that a clearly established rule
applies to a given set of facts that there could be no 'fairminded disagreement' on the
question.” White v. Woodall,-----U.S.

-, 134 S. Ct. 1697, 1706-07 (2014) (citing

Harrington v. Richter, 562 U.S. 86, 103 (2011)). “Thus, 'if a habeas court must extend a
rationale before it can apply to the facts at hand,’ then by definition the rationale was not
'clearly established at the time of the state-court decision.'" White, 134 S. Ct. at 1706
(quoting Yarborough v. Alvarado, 541 U.S. 652, 666 (2004)).
A state court's decision can be “contrary to” federal law if: (1) the state court arrives at a
conclusion opposite to that reached by the Supreme Court on a question of law; or (2) the
state court decides a case differently than the Supreme Court has on a set of materially
indistinguishable facts. Williams, 529 U.S. at 405-06, 412-13; Penry v. Johnson, 532 U.S.
782, 792-93 (2001); Hill, 210 F.3d at 485. A state court's decision can involve an
"unreasonable application” of federal law if it correctly identifies the governing rule but then
applies it unreasonably to the facts. White, 134 S. Ct. at 1706-07; Williams, 529 U.S. at
406-08, 413; Penry, 532 U.S. at 792.
The Supreme Court in Williams did not specifically define “unreasonable” in the context of
decisions involving unreasonable applications of federal law. See Wiliiams, 529 U.S. at 410.
The Court, however, noted that an unreasonable application of federal law is different from
an incorrect application of federal law. Id. “ '[A] federal habeas court may not issue the writ
simply because that court concludes in its independent judgment that the state-court

11 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrection al. westlaw.com/Document/I2b65d2dO lb3911...

decision applied [a Supreme Court case] incorrectly.’ ’’ Price v. Vincent, 538 U.S. 634, 641
(2003) (quoting Woodford v. Visciotti, 537 U.S. 19, 24-25 (2002)) (brackets in original); Bell
v. Cone, 535 U.S. 685, 699 (2002).
'16 Thus, under the "unreasonable application” determination, the Court need not determine
whether the state court's reasoning is sound, rather “the only question for a federal habeas
court is whether the state court's determination is objectively unreasonable." Neal v. Puckett,
286 F.3d 230, 246 (5th Cir. 2002). The burden is on the petitioner to show that the state
court applied the precedent to the facts of his case in an objectively unreasonable manner.
Price, 538 U.S. at 641 (quoting Woodford, 537 U.S. at 24-25); Wright v. Quarterman, 470
F.3d 581,585 (5th Cir. 2006). In addition, review under § 2254(d)(1) is limited to the record
before the state court that adjudicated the claim on the merits. Cullen v. Pinholster, 563 U.S.
170, 181 (2011).
VI. Sufficiency of the Evidence (Claim No. 1)
Gross contends that the evidence was insufficient to convict him of second degree
murder.51 Gross asserts that there was no evidence linking to Sanchez's murder and that
Abreu’s testimony was not credible. Gross alleges that he went to Sanchez's home to
conduct a drug deal and that, when he left, Sanchez was alive. The State argues that the
evidence that was presented at trial was sufficient to establish each element of the crime
charged and denial of relief by the state courts' was proper under federal law.
Gross's counsel raised the sufficiency of the evidence on direct appeal to the Louisiana
Fifth Circuit. Relying on the standards set forth in Jackson v. Virginia, 443 U.S. 307 (1979)
and related state law, the Court resolved that the evidence was sufficient to convict Gross
under the felony murder theory of second degree murder. The Louisiana Fifth Circuit found
that Abreu's testimony regarding the incident, Gross's testimony that his statement to police
was fabricated, and his testimony that they went to Sanchez's apartment to conduct a drug
deal and that he was alive when Gross left, went to credibility which was exclusively a jury
decision and that the evidence, when viewed in the light most favorable to the prosecution,
was sufficient to establish that the defendant was guilty of the second degree murder.52
This was the last reasoned opinion on the issue because the Louisiana Supreme Court
denied relief without stated reasons. See Ylst, 501 U.S. at 802.
Claims of insufficient evidence present a mixed question of law and fact. Perez v. Cain, 529
F.3d 588, 594 (5th Cir. 2008); Maes v. Thomas, 46 F.3d 979, 988 (10th Cir. 1995). The Court
must therefore give deference to the state court's findings unless the decision was contrary
to, or involved an unreasonable application of Supreme Court law. Miller v. Johnson, 200
F.3d 274, 281 (5th Cir. 2000).
The appropriate standard for determining the sufficiency of evidence is that set forth in
Jackson, relied on by the state appellate court, which requires a court to determine whether,
after viewing the record and the evidence in the light most favorable to the prosecution, a
rational trier of fact could have found the essential elements of the crime proven beyond a
reasonable doubt. Jackson, 443 U.S. at 319; Perez, 529 F.3d at 594; Williams v. Cain, 408
F. App'x 817, 821 (5th Cir. 2011). Louisiana law allows for a crime to be proven by both
direct and circumstantial evidence.
'17 Under Louisiana law, “[t]he rule as to circumstantial evidence is: assuming every fact to
be proved that the evidence tends to prove, in order to convict, it must exclude every
reasonable hypothesis of innocence.” La. Rev. Stat. § 15:438. However, on federal habeas
corpus review, the court does not apply this state law, “reasonable hypothesis” standard,
and instead must apply the Jackson and AEDPA standards of review. Gilley v. Collins, 968
F.2d 465, 468 (5th Cir. 1992) (citing Schrader v. Whitley, 904 F.2d 282, 284 (5th Cir. 1990)).
To the extent Gross relies on Louisiana’s circumstantial evidence rule itself, “[t]his is not a
purely separate test from the Jackson standard to be applied instead of a sufficiency of the
evidence test.... Ultimately, all evidence, both direct and circumstantial, must be sufficient
under Jackson to satisfy a rational juror that the defendant is guilty beyond a reasonable
doubt." State v. Porretto, 468 So. 2d 1142, 1146 (La. 1985); accord State v. Williams, 693
So. 2d 204, 209 (La. App. 4th Cir. 1997). The reasonable hypothesis standard under state
law is “just an evidentiary guide for the jury. If a rational trier of fact reasonably rejects the
defendant's hypothesis of innocence, that hypothesis fails.” State v. Maxie, 614 So. 2d 1318,
1321 (La. App. 3d Cir. 1993); accord Williams, 693 So. 2d at 209. The appropriate standard
for this Court on habeas review remains Jackson.

12 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

The Court's consideration of the sufficiency of the evidence extends only to what was
presented at trial. See McDaniel v. Brown, 558 U.S. 120, 131, 134 (2010) (recognizing that a
reviewing court is to consider all of the trial evidence as a whole under Jackson); Johnson
v. Cain, 347 F. App'x 89, 91 (5th Cir. 2009) (quoting Jackson, 443 U.S. at 324) (Jackson
standard relies "upon the record evidence adduced at the trial."). The review of the
sufficiency of the evidence, however, does not include review of the weight of the evidence
or the credibility of the witnesses, because those determinations are the exclusive province
of the jury. United States v. Young, 107 F. App'x 442, 443 (5th Cir. 2004) (per curiam) (citing
United States v. Garcia, 995 F.2d 556, 561 (5th Cir. 1993)); see also Jackson, 443 U.S. at
319 (noting that it is the jury's responsibility "to resolve conflicts in the testimony, to weigh
the evidence, and to draw reasonable inferences from basic facts to ultimate facts”). A
reviewing federal habeas court, therefore, is not authorized to substitute its interpretation of
the evidence or its view of the credibility of witnesses for that of the fact-finder. Weeks v.
Scott, 55 F.3d 1059, 1062 (1995) (citing Alexander v. McCotter, 775 F.2d 595, 598 (5th Cir.
1985)). All credibility choices and conflicting inferences must be resolved in favor of the
verdict. Ramirez v. Dretke, 398 F.3d 691, 695 (5th Cir. 2005).
In addition, “(tjhe Jackson inquiry 'does not focus on whether the trier of fact made the
correct guilt or innocence determination, but rather whether it made a rational decision to
convict or acquit.' ” Santellan v. Cockrell, 271 F.3d 190, 193 (5th Cir. 2001) (quoting Herrera
v. Collins, 506 U.S. 390, 402 (1993)). Thus, to determine whether the commission of a
crime is adequately supported by the record, the court must review the substantive elements
of the crime as defined by state law. Perez, 529 F.3d at 594 (citing Jackson, 443 U.S. at 324
n. 16).
*18 Gross was charged with and convicted of second degree murder. Second degree
murder is defined in relevant part by Louisiana law as "the killing of a human being: (1)
When the offender has a specific intent to kill or to inflict great bodily harm; or (2) when the
offender is engaged in the perpetration or attempted perpetration of... aggravated
kidnapping, second degree kidnapping ... armed robbery, first degree robbery, second
degree robbery, simple robbery ... even though he has no intent to kill or to inflict great
bodily harm.” La. Rev. Stat. § 14:30.1(A)(1).
In this case, although the jury was charged with both theories, the State indicted Gross
under the second theory. The phrase "specific intent" is defined as the state of mind in which
the perpetrator "actively desired the prescribed criminal consequences to follow his act or
failure to act." La. Rev. Ann. § 14:10(1). Under Louisiana law, intent need not be proven
directly but may be inferred from the actions of the defendant and the circumstances
surrounding those actions. State v. Sharlhome, 554 So. 2d 1317, 1321 (La. App. 1st Cir.
1989); State v. Tate, 851 So. 2d 921,930 (La. 2003) (citing State v. Brooks, 505 So. 2d 714,
717 (La. 1987)). Specific intent to kill can be implied by the intentional use of a deadly
weapon, such as a knife or a gun. State v. Collins, 43 So. 3d 244, 251 (La. App. 1st Cir.
2010) (citing State v. Brunet, 674 So.2d 344, 349 (1996)).
The State sought to prove that Sanchez's death occurred during the commission of at least
one of the enumerated felonies, specifically second degree kidnapping. Under Louisiana law
in relevant part, second degree kidnapping is the forcible seizing and carrying of any person
from one place to another when the perpetrator offender is armed with a dangerous
weapon. La. Rev. Stat. § 14:44.1 (A)(5). The Louisiana Supreme Court has held that the term
"from one place to another” "requires evidence that the offender relocated the victim from
one physical setting or environment to another.” State v. Davillier, 752 So.2d 149, 150 (La.
1999). Second degree kidnapping is a general intent crime. State v. Jackson, 132 So.3d
516, 530 (La. App. 2d Cir. 2014).
General criminal intent exists under Louisiana law “when the circumstances indicate that the
offender, in the ordinary course of human experience, must have adverted to the prescribed
criminal consequences as reasonably certain to result from his act or failure to act." La. Rev.
Stat. § 14:10(2). General intent may be inferred from the circumstance of the transaction
and proved by direct or circumstantial evidence. State v. Brokenberry, 942 So. 2d 1209,
1213 (La. App. 2d Cir. 2006); State v. Culp, 17 So. 3d 429, 435 (La. App. 2d Cir. 2009).
Determination of whether the requisite intent is present in a criminal case is for the trier of
fact. State v. Brown, 92 So. 3d 579, 585 (La. App. 2d Cir. 2012) (citing State v. Huizar, 414
So. 2d 741 (La. 1982)).
Louisiana law defines "principals” as “[ajll persons concerned in the commission of a crime,

13 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrection al. westlaw.com/Document/I2b65d2dO lb3911...

whether present or absent, and whether they directly commit the act constituting the
offense, aid and abet in its commission, or directly or indirectly counsel or procure another to
commit the crime[.f La. Rev. Stat. § 14:24. Under the law of principals, all persons involved
in the commission of a crime are equally culpable, and it is of no consequence whether
Gross was present when Sanchez was killed or which of the perpetrators fired the actual
shot that killed the victim. See, e.g., State v. Massey, 91 So.3d 453, 463-64 (La. App. 5th
Cir. 2012); State v. Page, 28 So.3d 442, 449-50 (La. App. 5th Cir. 2009).
'19 In resolving the issue of sufficiency of the evidence, the state appellate court focused on
the felony-murder prong of the second degree murder definition. The jury heard testimony
from Abreu that Gross, King and a third assailant, armed with guns, forced their way into
Sanchez's apartment.53 Abreu was restrained while the assailants searched the apartment,
ultimately taking money, jewelry, cellphones and a gun.54 Abreu heard Sanchez return and
heard something fall to the floor.55 Within seconds, she saw the perpetrators leave in
Sanchez's Expedition with Sanchez in the backseat between two of the men.56 Gross
admitted in his statement to police that they were armed and forced Sanchez into the
Expedition and eventually drove toward New Orleans East.57 Sanshez was found dead of a
gunshot wound on the side of the interstate in New Orleans East later that evening. 58
According to Gross's statement, King told him that they had "handled that,” which Gross
interpreted to mean that that they had killed him.59 Gross explained in his recorded
statement that:

Well Javier knew him, you know, he didn't knew me. So, you know, and with
this guy and this girl's background and things, you know, we already had
done, you know, discussed that, you know, one point of the time, you know,
I’m like, you know, they don't know me, you know, they know you, you know
them, you know, so I know if he was faced with that situation he gonna get
rid of him for fear that Javier was gone so being killed or whatever. That's the
only way, you know, Javier was going so being killed or whatever. That's the
only way, you know, you know, the only way out so it was like, you know, you
can't not do anything, so I feel like, you know, that's what he did, you know,
took him out.60

While Gross argues that the testimony of Abreu was not credible and that his statement to
police was fabricated, the jury obviously found Abreu's testimony and statements to be
credible and rejected Gross's testimony. Jackson limits this Court's review to the evidence
before the trier of fact and does not allow the Court to reassess the weight and credibility of
the evidence. See Jackson, 443 U.S. at 319 (finding that such matters are left to the
factfinder). Specifically, the determination of the credibility of a witness is within the province
of the jury and is not to be disturbed on habeas review. Passman v. Blackburn, 652 F.2d
559, 569 (5th Cir. 1981) (that the jury chose to believe a witness whose credibility was
challenged is not a question of constitutional dimensions); Holderfield, 903 F. Supp. at 1018
(citing United States v. Hatch, 926 F.2d 387, 399 (5th Cir. 1991)) (The habeas court should
defer to the jury's resolution of credibility determinations and justifiable inferences of fact.).
The jury's resolve was reasonable and supported by the evidence and testimony.
A rational trier of fact, after viewing this evidence in the light most favorable to the
prosecution, could easily find beyond a reasonable doubt that Gross, King and another
kidnapped Sanchez at gunpoint and took him to New Orleans East where one of the three
men shot and killed him.
The state courts' rejection of Gross's insufficient evidence claim does not present an
unreasonable application of Supreme Court precedent to the facts of this case. Gross is not
entitled to relief on this claim.
VII. Denial of Right to Present a Defense fClaim No. 41
'20 Gross next claims that the Trial Court denied him his right to present a defense when it
prohibited defense counsel from questioning a detective regarding a bloody fingerprint that
was found on the passenger side of Izaguirre's vehicle and by excluding evidence of the
police investigation into Izaguirre regarding Sanchez's murder.
Gross raised the issue on direct appeal. The Louisiana Fifth Circuit, relying on state law,

14 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrectir>n a],westIaw.com/Document/I2b65d2dO lb3911...

found that the Trial Court’s evidentiary rulings were not an abuse of discretion.61 The Court
found that the evidence regarding the bloody fingerprint was inadmissible hearsay and did
not warrant the use of the “fairness exception, »62 It further found that the rulings did not
interfere with Gross's constitutional right to present a defense as it was apparent from the
record that the theory of defense was that Izaguirre may have been responsible for
Sanchez's murder and that Gross had extensively cross-examined Detective Renaudin
about the possibility that Izaguirre was involved in the murder.63 This was the last reasoned
opinion as the Louisiana Supreme Court denied relief without stated reasons. See Ylst, 501
U.S. at 802.
A federal court does “not sit as [a] 'super' state supreme court in a habeas corpus
proceeding to review errors under state law.” Wilkerson v. Whitley, 16 F.3d 64, 67 (5th Cir.
1994) (quotation omitted); see also Swarthout v. Cooke, 562 U.S. 216, 219 (2011) (federal
habeas review does not lie for errors of state law); accord Molo v. Johnson, 207 F.3d 773,
776 n. 9 (5th Cir. 2000); Narvaiz v. Johnson, 134 F.3d 688, 695 (5th Cir. 1998) (citing
Estelle, 502 at 67-68; Lewis v. Jeffers, 497 U.S. 764, 780 (1990); West v. Johnson, 92 F.3d
1385, 1404 (5th Cir. 1996)); see also Hogue v. Johnson, 131 F.3d 466, 506 (5th Cir. 1997)
(a disagreement as to state law is not cognizable on federal habeas review). Federal
habeas review is limited to errors of constitutional dimension and federal courts do not sit to
review the mere admissibility of evidence under state law. Estelle, 502 U.S. at 67-68;
Gonzales v. Thaler, 643 F.3d 425, 429 (5th Cir. 2011); Castillo v. Johnson, 114 F.3d 218, 222
(5th Cir. 1998). Thus, to the extent that Gross argues that the evidence of the bloody
fingerprint and the investigation of Izaguirre was excluded from his trial in violation of
Louisiana evidence rules or by other error in the Trial Court's rationale and reasoning, those
claims are not cognizable on federal habeas review. See Swarthout, 562 U.S. at 219.
The states are free to implement procedures regarding the admission and/or exclusion of
evidence, provided those procedures do not infringe on a constitutional guarantee. Burgett
v. Texas, 389 U.S. 109, 113-14 (1967); Williams v. Price, 343 F.3d 223, 230 n. 3 (3rd Cir.
2003); Pemberton v. Collins, 991 F.2d 1218, 1223 (5th Cir. 1993); Nees v. Culbertson, 406
F.2d 621,625 (5th Cir. 1969); Tillman v. Thaler, No. A-09-CA582-SS, 2010 WL 2731762, at
*13 (W.D. Tex. July 9, 2010). Gross's claims that the Trial Court erred in limiting his use of
the investigation into Izaguirre and the bloody fingerprint found on his car may support
federal habeas corpus relief only if the state court evidentiary rulings violate due process in
such a waj as to render Gross's criminal proceedings fundamentally unfair. Lisenba v.
California, 314 U.S. 219, 236-37 (1941); Gonzales v. Thaler, 643 F.3d 425, 430 (5th Cir.
2011); see Peters v. Whitley, 942 F.2d 937, 940 (5th Cir. 1991) (habeas corpus review is
proper only to determine whether a state trial judge's error is so extreme as “to render the •
trial fundamentally unfair or violate an explicit constitutional right”). Federal habeas corpus
relief may be granted on erroneous state evidentiary rulings only if the evidence at issue is
“a crucial, critical, or highly significant factor in the context of the entire trial.” Thomas v.
Lynaugh, 812 F.2d 225, 230 (5th Cir. 1987) (citations omitted); accord Gonzales, 643 F.3d at
430; Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
*21 The question of whether evidence is constitutionally admitted or excluded is a mixed
question of law and fact. Livingston v. Johnson, 107 F.3d 297, 309 (5th Cir.), cert, denied,
522 U.S. 880 (1997); Tyson v. Trigg, 883 F.Supp. 1213, 1218 (S.D. Ind. 1994) affd, 50 F.3d
436 (7th Cir. 1995), cert, denied, 516 U.S. 1041 (1996). Under the applicable standard of
review, this court therefore must determine whether the state courts' decisions are contrary
to or involve an unreasonable application of Supreme Court precedent.
A defendant has a constitutional right to present a complete defense. Taylor v. Illinois, 484
U.S. 400, 408 (1988). While the Constitution guarantees criminal defendants a meaningful
opportunity to present a complete defense, this right is not absolute. Holmes v. South
Carolina, 547 U.S. 319, 324 (2006). Broad latitude is granted to states to establish rules
excluding evidence from criminal trials. Id. at 324; Nevada v. Jackson, 133 S. Ct. 1990, 1992
(2013). The Supreme Court has “(ojnly rarely (...) held that the right to present a complete
defense was violated by the exclusion of defense evidence under a state rule of evidence."
Nevada v. Jackson, 133 S. Ct. at 1992 (citations omitted). The Court has instead recognized
that the Due Process Clause does not guarantee the right to introduce all evidence the
defendant deems relevant, because the right to present even relevant evidence is not
‘absolute.” Montana v. Egelhoff, 518 U.S. 37, 42 (1996). The right to present a complete
defense is not "an unfettered right to offer testimony that is incompetent, privileged, or
otherwise inadmissible under standard rules of evidence.” Taylor, 484 U.S. at 410.

15 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectir>r|al. westlaw.com/Document/I2b65d2d01b3911...

“[T]he Confrontation Clause only guarantees 'an opportunity for effective cross-examination,
not cross-examination that is effective in whatever way, and to whatever extent, the defense
might wish.’ ’ Pennsylvania v. Ritchie, 480 U.S. 39, 53 (1987) (emphasis original) (quoting
Delaware v. Fensterer, 474 U.S. 15, 20 (1985)); see also Rizzo v. Smith, 528 F.3d 501, 506
(7th Cir. 2008). "For the exclusion of evidence to violate this right by denying the accused a
fundamentally fair trial, the evidence must be ‘material,’ in the constitutional sense that it
'creates a reasonable doubt that did not otherwise exist....’ ” Jimenez v. Walker, 458 F.3d
130, 146 (2nd Cir. 2006), cert, denied, 549 U.S. 1133 (2007) (quoting United States v.
Agurs, 427 U.S. 97, 112-13 (1976)). “ ‘If there is no reasonable doubt about guilt whether or
not the additional evidence is considered, there is no justification for a new trial.’ But ’if the
verdict is already of questionable validity, additional evidence of relatively minor importance
might be sufficient to create a reasonable doubt.’ ” Id. at 146-47 (quoting Agurs, 427 U.S. at
112-13). “As with many rights, the right to present a defense is not unlimited.” Jimenez, 458
F.3d at 147. "[W]e have never questioned the power of States to exclude evidence through
the application of evidentiary rules that themselves serve the interests of fairness and
reliability - even if the defendant would prefer to see that evidence admitted." Crane v.
Kentucky, 476 U.S. 683, 690 (1986) (citing Chambers v. Mississippi, 410 U.S. 284, 302
(1973)). “The Constitution leaves to the judges who make decisions 'wide latitude’ to
exclude evidence that is ... 'only marginally relevant'....’’ Id. at 690 (quoting Delaware v. Van
Arsdall, 475 U.S. 673, 679 (1986)).
*22 In this case, Detective Renaudin testified that Sanchez was a person of interest in an
ongoing DEA investigation, the Harvard Street residence was searched by DEA pursuant to
a warrant, and that Izaguirre and John Lusena, who were associates and co-workers of
Sanchez, were detained.64 Renaudin interviewed Izaguirre and Lusena and found them to
be cooperative.65 Renaudin verified their alibis.66 Renaudin testified that he never
considered Izaguirre or Lusena to be suspects in Sanchez’s murder because they did not fit
Abreu's descriptions of the assailants, their fingerprints were not found at Sanchez's
residence, they did not have any violent criminal history, and they were not implicated by the
statements of King or Gross.67 While the Trial Court sustained the State's objections to
some of defense counsel's questions regarding the search of the Harvard Street residence
including the discovery of a bloody fingerprint on the passenger door of Izaguirre's
vehicle68, Renaudin explained that he was not present when the search warrant was
executed and that the information in his report pertaining to the search was from the
investigation by the DEA and Louisiana State Police.69
Gross has failed to show that his trial was rendered fundamentally unfair by virtue of the
Trial Court's exclusion of evidence regarding the bloody fingerprint and the information in
Renaudin's report regarding the investigation of Izaguirre. It is clear from the record that
Gross was fully able to present the defense he sought to assert concerning his presence in
Sanchez's home to conduct a drug deal rather than a robbery and that he had nothing to do
with Sanchez's kidnapping and murder. It was evident that his defense was, that when he
left Sanchez's residence, Sanchez was alive and was having an argument with Izaguirre.
The jury rejected that defense, as it was entitled to do given the other evidence of Gross's
guilt.
The state courts' rejection of Gross's claim was not contrary to and does not involve an
unreasonable application of clearly established Supreme Court law. Gross is not entitled to
relief as to this claim.
VIII. Admission of Involuntary Statement (Claim No. 51
Gross next claims that the Trial Court erred in denying his motion to suppress his statement
to police. Gross claims his statement was not freely and voluntarily made but rather was the
result of physical and psychological abuse by the police. He further claims that he invoked
his right to counsel when he was taken into custody in Texas and advised the detectives of
his attorney's name at that time. He also claims that the Trial Court erred in failing to reopen
the suppression hearing.
In 2008, prior to the return of the superseding indictment charging Gross and King with
second degree murder and aggravated robbery, the defense filed motions to suppress the
statements Gross and King made to law enforcement.70 The state district court held an
evidentiary hearing on September 29, 2008, after which it denied the motions.71 Those
rulings were confirmed in a hearing on August 30, 2010.72

16 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectinnal.westlaw.com/Document/I2b65d2d01b3911...

After Gross was indicted on the charges in this case in 2011, his counsel filed omnibus
motions, including a motion to suppress the statements.73 Defense counsel also filed a
motion to adopt co-defendant King's motions.74 Gross filed pro se motions to suppress his
statements.75 The record does not indicate a ruling on those motions. However, during
King’s trial, King's counsel successfully moved to reopen the suppression hearing based on
evidence in a New Orleans Police Department report that Williams continued to question
King after he had refused to waive his rights and the state district court granted King's
motion to suppress his statement made to Wiliams.76
*23 Gross raised the issue regarding the denial of his motion to suppress and the failure to
reopen the suppression hearing on direct appeal. In the last reasoned opinion, the Louisiana
Fifth Circuit, after reviewing the evidence from the suppression hearing and trial, found that
the State had met its burden of proving the admissibility of the statement.77 The Court
explained that Gross was properly advised of his constitutional rights and knowingly and
voluntarily waived those rights prior to giving his statement. The Court found that all of the
officers involved in taking Gross's statement testified at the suppression hearing, the trial or
both and that another suppression hearing was unnecessary.78
The admissibility of a confession is a mixed question of law and fact. Miller v. Fenton, 474
U.S. 104, 112 (1985); Shislnday v. Quarierman, 511 F.3d 514, 522 (5th Cir. 2007) (citing

\

Miller, 474 U.S. at 112). A federal court on habeas review must respect the state court's
determination of voluntariness as long as it was not "contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court." 28 U.S.C. § 2254(d)(1); Barnes v. Johnson, 160 F.3d 218, 222 (5th Cir. 1998). In
doing so, a federal habeas court must afford a presumption of correctness to state courts'
findings of fact, if they are fairly supported by the record. Miller, 474 U.S. at 117. Similarly,
the habeas corpus statute obliges federal judges to respect credibility determinations made
by the state court trier of fact. Pemberton v. Collins, 991 F.2d 1218, 1225 (5th Cir. 1993)
(citing Sumnerv. Mata. 455 U.S. 591, 597 (1982)).
Under Miranda v. Arizona, 384 U.S. 436 (1966), a statement made by a person in custody is
inadmissible unless that person was informed that he has the right to have an attorney
present during questioning, that he has the right to remain silent, and that anything that he
says may be used against him. Id., 384 U.S. at 444-45. These rights may be waived so long
as the waiver is knowing and voluntary. Moran v. Burbine, 475 U.S. 412, 421 (1986). Two
inquiries determine whether an accused has voluntarily and knowingly waived his Fifth
Amendment privilege against self-incrimination. Moran, 475 U.S. at 421; Soffar v. Cockrell,
300 F.3d 588, 592 (5th Cir. 2002). First, waiver of the right must be voluntary and not the
product of intimidation, coercion or deception. Moran, 475 U.S. at 421. Second, the waiver
or relinquishment must be made with full awareness of the nature of the right being waived.
Id. The Supreme Court does not require that any precise language be continued in the
written waiver forms used by police officials, as long as the warnings "were sufficiently
comprehensive and comprehensible when given a commonsense reading." Florida v.
Powell, 559 U.S. 50, 63 (2010). The court must consider the "totality of all the surrounding
circumstances—both the characteristics of the accused and the details of the interrogation.”
Schneckloth v. Bustamonte, 412 U.S. 218, 224 (1973).
A finding of coercive police conduct is a necessary prerequisite to a conclusion that a
confession was involuntary, and the defendant must establish a causal link between the
coercive conduct and the confession. Carter v. Johnson, 131 F.3d 452, 462 (5th Cir. 1997)
(citing Colorado v. Connelly, 479 U.S. 157, 163-67, 107 S.Ct. 515, 93 L.Ed.2d 473 (1986)).
Determining whether officers engaged in coercive tactics to elicit a confession is a question
of fact, and the state court's factual findings are entitled to deference when supported by the
record. Pemberton v. Collins, 991 F.2d 1218, 1225 (5th Cir. 1993); Self v. Collins, 973 F.2d
1198, 1204 (5th Cir. 1992); see also, Miller, 474 U.S. at 112, 106 S.Ct. 445 (noting that
subsidiary questions such as whether the police engaged in coercive tactics are afforded the
presumption of correctness). Thus, federal judges are to respect credibility determinations
made by the state court trier of fact. Pemberton, 991 F.2d at 1225 (citing Sumnerv. Mata,
455 U.S. 591, 597, 102 S.Ct. 1303, 71 L.Ed.2d 480 (1982)). However, if the underlying facts
as determined by the state court indicate the presence of some coercive tactic, the impact
that factor had on the voluntariness of the confession is a matter for independent federal
determination and is ultimately a legal determination. Miller, 474 U.S. at 117, 106 S.Ct. 445;
Shislnday, 511 F.3d at 522.

17 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https ://nextcorrectinn a], westlaw.com/Document/I2b65d2dO lb3911...

*24 In Gross's case, in accordance with Jackson v. Denno, 378 U.S. 368 (1964), the Trial
Court conducted a full evidentiary hearing on the motion to suppress filed by counsel and
the admissibility of the inculpatory statements. The Trial Court received testimony from the
investigating officers, including the interviewers Bradberry and Williams, and other evidence,
including the waiver of rights form signed by Gross, the transcript of his statement, and
Abreu's deposition.79 The Trial Court found no basis to suppress the statement and denied
the motion. On direct appeal, the Louisiana Fifth Circuit entered its own findings on the
issue.
In reviewing the claims, the Louisiana Fifth Circuit determined that both the hearing and trial
records proved beyond a reasonable doubt that Gross was advised of his Miranda warnings
prior to making his statements. The record established that he waived his rights and that his
statements were freely and voluntarily given, and that he was not under the influence of fear,
duress, intimidation, menaces, threats, inducements, or promises.
On federal habeas review, this Court must presume correct the factual determinations made
by the state courts, including that Gross was read his Miranda rights, he indicated that he
understood his rights, and that he voluntarily waived those rights and that the circumstances
of his interviews did not amount to duress. See Pemberton, 991 F.2d at 1225.
The record before this Court supports the state courts' findings. Sergeant Bradberry testified
at the suppression hearing that he read Gross his Miranda rights before transporting him
from Texas to Louisiana, that Gross said he understood them, and that Gross asked
questions about the evidence and intermittently made statements during the drive. 80
According to Bradberry, Gross slept on and off during the drive, was offered food and was
allowed to use the bathroom.81 Bradberry explained that when they arrived in Jefferson
Parish, he reviewed a written waiver of rights form with Gross, which Gross executed, and
after which he made a recorded statement.82 Bradberry testified that at no time did Gross
ever request to speak to an attorney and that no force, coercion, intimidation or promises
were made at any time to induce him into making a statement. 83 On rebuttal at trial,
Bradberry similariy testified that Gross was advised of his rights and made statements
during the trip back to Louisiana.84 He testified that Gross napped, was offered food, and
used the restroom during the trip.85 Bradberry denied that anyone ever struck Gross or
called him any derogatory names. 86
Detective Wiliams testified at the suppression hearing that she had seen Gross's executed
waiver form before he gave her a statement.87 Wiliams testified that Gross never
requested to speak to an attorney and no force, coercion, or intimidation was used nor
promises made to get him to make a statement.88 At trial, Wiliams testified that she initially
met with Gross at 1:56 a.m. on December 6, 2007, at which time he did not make a
statement.89 Around 8:00 a.m., Wiliams was notified by the Jefferson Parish Detective
Bureau that Gross wished to make a statement.90 Wiliams returned and Gross gave a
statement.91
*25 Detective Renaudin, who was with Bradberry when they drove Gross back to Louisiana,
testified at trial that he advised Gross of his rights when they were in the vehicle and that
Gross said he understood them.92 Renaudin read to Gross excerpts of the police report,
including King's statement, but Gross denied any involvement in the incident.93 Gross
slept during the trip and was offered the opportunity to eat and use the restroom.94 Gross
was also allowed to sleep at the Investigation Bureau prior to being interviewed.95
Thereafter, Gross was again advised of his rights and executed a waiver of rights form and
gave a recorded statement.96 Renaudin denied threatening, slapping or beating Gross and
testified that Gross's statement was made voluntarily.97 According to Renaudin, Gross
never asked to speak with counsel.98
To overcome the presumption of correctness as to these findings, Gross must rebut these
factual findings by clear and convincing evidence, which he has not done. In his federal
habeas petition, Gross merely repeats his allegations that he requested an attorney and of
physical and psychological abuse already addressed by the state courts. These allegations,
however, are unsupported by any evidence adduced at the motion hearing. While Gross
testified at trial that he was physically and psychologically abused, the state courts found his

18 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrecti''n al .westlaw.com/Document/I2b65d2dO lb3911...

testimony not to be credible. As previously explained, the court must respect credibility
determinations made by the state court trier of fact. Pemberton, 991 F.2d at 1225 (citing
Sumnerv. Mata, 455 U.S. 591, 597, 102 S.Ct. 1303, 71 L.Ed.2d 480 (1982)).
The state courts' factual determinations regarding voluntariness are adequately supported
by the credible testimony in the record. Therefore, this Court on habeas corpus review must
accept as conclusive the state courts' factual determination that the challenged statements
were voluntary and were not a product of physical or psychological abuse.
Accordingly, the state courts' denial of relief on this issue is not contrary to, or an
unreasonable application of, Supreme Court precedent. Gross is not entitled to relief on this
issue.
IX. Exculpatory Evidence (Claim No. 7)
Gross next claims that the State violated Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10
L.Ed.2d 215 (1963) and its progeny by failing "to disclose the criminal conviction of their key
witness."99 He alleges that the State withheld evidence that Abreu had a federal conviction
for possession of stolen mail.
Gross raised this issue in his application for post-conviction relief. The Trial Court found no
merit to the claim as the evidence was made available to the defense prior to trial.100 The
Louisiana Fifth Circuit agreed with the determination of the Trial Court that there was no
Brady violation because the State did not suppress the evidence.101 In the last reasoned
opinion, the Louisiana Supreme Court found that Gross failed to meet his post-conviction
burden of proof. 102
" 'Whether rooted directly in the Due Process Clause of the Fourteenth Amendment or in the
Compulsory Process or Confrontation clauses of the Sixth Amendment, the Constitution
guarantees criminal defendants a meaningful opportunity to present a complete defense.’"
Brazley v Cain, 35 F. App'x 390, 2002 WL 760471 at *6 (5th Cir. Apr. 16, 2002) (quoting
United States v. Scheffer, 523 U.S. 303, 329 n. 16 (1998)). These violations will only occur
when the defendant is denied the opportunity to cross-examine a witness, prevented from
putting a witness on the stand, or prevented from introducing material evidence. Id.
*26 The prosecution's production of impeachment evidence is addressed by the rules
announced in Brady v. Maryland, 373 U.S. 83 (1963), in which the Supreme Court required
that state prosecutors produce exculpatory and impeachment evidence. Brady, 373 U.S. at
87. The Brady disclosure requirement applies only to evidence that is exculpatory and
material to guilt or that is favorable impeachment evidence. Strickler v. Greene, 527 U.S.
263, 282 (1999); Brady, 373 U.S. at 87. Claims pursuant to Brady involve ’ 'the discovery of
evidence after trial of information which had been known to the prosecution but unknown to
the defense.'" Lawrence v. Leasing, 42 F.3d 255, 257 (5th Cir. 1994) (quoting United States
v. Agurs, 427 U.S. 97, 103 (1976)). Thus, “when information is fully available to a defendant
at the time of trial and his only reason for not obtaining and presenting the evidence to the
Court is his lack of reasonable diligence, the defendant has no Brady claim." United States
v. Brown, 628 F.2d 471, 473 (5th Cir. 1980); Kutznerv. Cockrell, 303 F.3d 333, 336 (5th Cir.
2002) (holding that Brady does not require prosecutors to furnish a defendant with
exculpatory evidence if that evidence is fully available to the defendant through an exercise
of reasonable diligence); Rectorv. Johnson, 120 F.3d 551, 558-59 (5th Cir. 1997) (holding
that the State has no duty to lead the defense toward potentially exculpatory evidence if the
defendant possesses the evidence or can discover it through due diligence). Brady also
does not place any burden upon the prosecution to conduct a defendant's investigation or
assist in the presentation of the defense's case. United States v. Marrero, 904 F.2d 251, 261
(5th Cir. 1990) (citations omitted); Bigby v. Cockrell, 340 F.3d 259, 279 (5th Cir. 2003).
The Supreme Court made clear that "the Constitution is not violated every time the
government fails or chooses not to disclose evidence that might prove helpful to the
defense.” Kyles, 514 U.S. at 436-37. "The mere possibility that an item of undisclosed
information might have helped the defense, or might have affected the outcome of the trial,
does not establish 'materiality' in the constitutional sense.” Agurs, 427 U.S. at 109-10.
Three factors must be considered to evaluate an alleged Brady violation: (1) the evidence at
issue must be favorable to the accused, either because it is exculpatory or impeaching; (2)
the evidence must have been suppressed by the State, either willfully or inadvertently; and
(3) prejudice must have ensued. Banks v. Dretke, 540 U.S. 668,691 (2004) (quoting

19 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectinnal.westlaw.com/Document/I2b65d2d01b3911...

Stickler, 527 U S. at 281-82). Evidence is material under Brady "if there is a reasonable
probability that, had the evidence been disclosed to the defense, the result of the
proceeding would have been different.” Kyles v. Whitley, 514 U.S. 419, 433 (1995) (citing
United States v. Bagley, 473 U.S. 667, 678 (1985)).
In Kyles, the Supreme Court extended the Brady ideal and held that “the individual
prosecutor has a duty to learn of any favorable evidence known to the others acting on the
government's behalf in the case, including the police. But whether the prosecutor succeeds
or fails in meeting this obligation (whether, that is, a failure to disclose is in good faith or bad
faith, see Brady, 373 U.S., at 87, 83 S.Ct., at 1196-1197) the prosecution's responsibility for
failing to disclose known, favorable evidence rising to a material level of importance is
inescapable.” Kyles, 514 U.S. at 438.
A claim under Brady is a mixed question of law and fact. Higgins v Cain, 434 F. App'x 405,
406 (5th Cir. 2011) (citing Banks v. Thaler, 583 F.3d 295, 309 (5th Cir. 2009)). Under the
applicable standard of review, this Court therefore must determine if the state court's
decision to denying relief was contrary to or involved an unreasonable application of
Supreme Court precedent.
Gross asserts that the evidence of Abreu's criminal history would have served as
impeachment evidence to place her credibility at issue before the jury, and because she was
the State's sole witness present at the apartment during the incident, it was likely that the
result of the trial would have been different. Under the Brady disclosure rules, the United
States Supreme Court has held that "[wjhen the reliability of a given witness may well be
determinative of guilt or innocence, nondisclosure of evidence affecting credibility falls within
this general rule.” Giglio v. United States, 405 U.S. 150, 153-54 (1972) (internal quotations
and citation omitted).
*27 There is nothing in the record to establish that the State concealed evidence of Abreu's
criminal history from the defense. The record reflects that an application for certification of
materiality of out-of-state witness was filed with the Trial Court on September 2, 2011, two
months prior to Gross's trial.103 The application indicated that Abreu was on federal
probation and the name of her probation officer.104 Gross admitted that he located the
application in the state court record. 105
As the information that Abreu was on federal probation was in the record of the state trial
court, the prosecution was under no obligation under Brady to assist Gross further. See
Marrero, 904 F.2d at 261; Bigby, 340 F.3d at 279.
The state courts' denial of relief on this issue was not contrary to or an unreasonable
application of Supreme Court precedent. Gross is not entitled to relief on this issue.
X. Perjured Testimonv/False Evidence (Claim No. 81
Gross next claims that the State knowingly presented false evidence relative to whether
Gross could be tied to a residence located in the 4700 block of Francis Drive which was one
block from where Sanchez's burned vehicle was found. Gross contends that the
prosecution knowingly presented the perjured testimony of Detective Rivere that Gross
lived at the residence as well as a map of locations of recovered evidence near the
residence.
Gross raised this claim in his application for post-conviction relief. The Trial Court found that
there was no merit to the claim as Gross supplied the information regarding his ties to the
Francis Drive address and admitted at trial that he had supplied the information.106 The
Louisiana Fifth Circuit agreed with that determination.107 The Louisiana Supreme Court
found that Gross failed to meet his post-conviction burden. 108
A state denies a defendant due process when it knowingly uses perjured testimony at trial or
allows untrue testimony to go uncorrected. Giglio v. United States, 405 U.S. 150, 766, 92
S.Ct. 763, 31 L.Ed.2d 104 (1972); Napue v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173, 3
L.Ed.2d 1217 (1959); Faulderv. Johnson, 81 F.3d 515, 519 (5th Cir. 1996). In order to obtain
relief, the defendant must show that: (1) the testimony was actually false. (2) the State knew
the testimony was false, and (3) the testimony was material. Duncan v. Cockrell, 70 F. App'x
741,744-45 (5th Cir. July 3, 2003); Kirkpatick v. Whitley, 992 F.2d 491,497 (5th Cir. 1993).
False testimony is “material” only if there is any reasonable likelihood that it could have
affected the jury's verdict. Duncan, 70 F. App'x at 744 (citing Nobles, 127 F.3d at 415).

20 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrectinnal.westlaw.com/Document/I2b65d2dO lb3911.. .

Here, it is clear that Gross has not met his burden of proving that the testimony was actually
false and that the prosecution knew it to be false and allowed it to go uncorrected. Detective
Rivere testified that Sanchez's burned vehicle was located in close proximity to an address
on Francis Drive which was believed to be a former or current address of Gross or that of
one of his relatives.109 Rivere generated a map showing the location where the vehicle was
recovered and the residence on Francis Drive.110 On cross-examination, Rivere testified
that he believed that the Francis Drive address was listed on Gross's arrest record as a
previous address.111 Rivere also testified that Detective Williams told him that the
residence was the home of Gross or his mother.112 Rivere admitted that he did not
personally determine whether Gross ever lived at the address and that he was not in
possession of any physical evidence, including the arrest record, demonstrating that Gross
had ties to the residence.113
*28 Detective Wiliams testified that Gross made a statement that King and Ben came to
Gross's residence on Francis Drive and told him that they had taken care of Sanchez.114
Wlliams's police report also indicates that Gross told her that King and the third perpetrator
met Gross at his residence on Francis Drive and then drove to Sanchez's residence.115
According to the transcript of Gross's statement taken by Bradberry and Renaudin, King
and his cousin met Gross at Gross's relative’s house on Francis Drive.116 After the
robbery, Gross returned to his relative's house on Francis Drive and, later, King and his
cousin returned to tell him that they had gotten rid of Sanchez.117 A record from the
Orleans Parish Assessor’s Office indicates that the residence located at 4791 Francis Drive
is owned by Homer and Bessie Gross.118 Significantly, Gross admitted at trial that he gave
the police the information regarding Francis Drive.119
Gross's argument is based on his mere conclusion that Rivere's testimony was false
because it was not corroborated by physical evidence and his arrest record includes a Baton
Rogue address. He further contends that his statements to law enforcement were fabricated
and that he truthfully testified at trial that he had no connection to the Francis Drive
residence. However, perjury is the offering of "false testimony concerning a material matter
with the willful intent to provide false testimony, rather than as a result of confusion, mistake,
or faulty memory.” United States v. Dunnigan, 507 U.S. 87, 94 (1993). The fact that Rivere's
testimony was inconsistent with other testimony and evidence does not establish that it was
false or that the prosecution knew or believed that testimony to be false. See Kutzner v.
Cockrell, 303 F.3d 333, 337 (5th Cir. 2002); Koch v. Puckett, 907 F.2d 524, 531 (5th Cir.
1990) (holding that conflicting testimony does not prove perjury but instead establishes a
credibility question for the jury). The mere existence of a conflict in testimony and evidence
does not make it false or perjured. See United States v. Wall, 389 F.3d 457, 473 (5th Cir.
2004), cert, denied, 544 U.S. 978, 125 S.Ct. 1874, 161 L.Ed.2d 730 (2005) (‘‘Wall has not
established that McDowell's testimony was actually false. He has merely shown that
Ristau's testimony would establish a conflict in the testimony, a far cry from showing that it
was 'actually false.’ ”). The evidence in this case presents nothing more than the kind of
credibility conflict and dispute over the appropriate weight to be afforded to it that frequently
occurs at trial and which is the jury's function to resolve.
Gross has failed to establish that the State violated his constitutional rights through the
presentation of any false testimony from Rivere. The state courts' denial of relief of this claim
was not contrary to, or an unreasonable application of federal law. Thus, Gross is not
entitled to relief on this claim.
XI. Suppressed Transcript
*29 Gross next claims that he was denied his right to appellate review in his direct appeal
because the transcript of a November 14, 2011 hearing was not produced to be included in
the appellate record. In support of this claim, Gross submits an affidavit from his trial
attorney, Eddie Jordan, Jr., in which Jordan states that he recalled a pretrial hearing at
which Gross's pro se motions were denied and that “[t]o the best of my knowledge,
information, and belief, this hearing, occurred on or about November 14, 2011. ■ 120
Gross raised this issue in his application for post-conviction relief. The Trial Court found no
merit to the claim, finding that nothing in the record showed that a motion hearing or other
proceeding was conducted on November 14, 2011.121 The Louisiana Fifth Circuit relied on

21 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.wesdaw.com/Document/I2b65d2d01b3911...

its previous finding on direct appeal that "nothing was taken in open court in this matter on
November 14, 2011 and thus there is no transcript of proceedings from this date, ■122 |,
noted that it had considered Jordan's affidavit but that the affidavit "does not change the fact
that the court record reflects that there were no pretrial hearings conducted on November
14, 2011.”123 The Louisiana Supreme Court found Gross did not meet his post-conviction
burden of proof that relief should be granted.124
To the extent Gross raises this issue as a violation of state law, his claim must fail. Federal
habeas review may only consider constitutional violations and noncompliance with federal
law as interpreted by the United States Supreme Court. See Swarthout, 562 U.S. at 219.
Gross does suggest that the failure to include the transcript of the November 14, 2011
hearing violated his Fifth Amendment right to due process. As a result, he has stated a
cognizable claim for federal habeas review. See Griffin v. Illinois, 351 U.S. 12, 19-21,76
S.Ct. 585, 100 L.Ed. 891 (1956). Gross claims the missing transcript denied him complete
appellate review. It is indisputably true that a criminal defendant has the right to adequate
appellate and other review of his conviction based upon a sufficiently complete and accurate
record. Mayerv. City of Chicago, 404 U.S. 189, 198, 92 S.Ct. 410, 30 L.Ed.2d 372 (1971).
However, the Supreme Court has not held that due process requires a verbatim transcript of
the entire proceedings or that an incomplete record confers automatic entitlement to relief.
To prevail on a claim that the record was inadequate, a petitioner must prove that the
missing portion of the transcript actually prejudiced his appeal in some manner. Green v.
Johnson, 160 F.3d 1029, 1045 (5th Cir. 1998) ("[Bjarring a showing that the [failure to record
bench conferences during trial] resulted in 'actual prejudice,’ habeas relief is unwarranted.”
(citation omitted)); see also Mullen v. Blackburn, 808 F.2d 1143, 1146 (5th Cir. 1987)
(finding petitioner failed to show the absence of voir dire transcript prejudiced his appeal);
Bozeman v. Cain, Civ. Action No. 09-8423, 2010 WL 2977393, at *4 (E D. La. June 7, 2010),
report and recommendation adopted, 2010 WL 2977402 (E.D. La. July 20, 2010) (finding
that petitioner's claim failed when there was no actual prejudice resulting from the failure to
transcript a bench conference).
*30 In this case, Gross has not demonstrated that the state courts' rejection of this claim
was based on an unreasonable determination of the facts in light of the evidence presented
in the state court proceedings. There is no evidence that a hearing on the motions actually
took place on November 14, 2011. Attorney Jordan did not state with certainty that a hearing
on the motions was held on November 14, 2011, and the other evidence of record confirms
that there was no such hearing. The minutes from November 14, 2011 simply reflect that the
trial was continued until the following day.125 The court reporter certified that nothing was
taken in open court on November 14, 2011. 126 Given this evidence, there was no transcript
to produce and no violation of due process.
The state courts' decision was neither contrary to, nor an unreasonable application of,
Supreme Court precedent. Thus, Gross is not entitled to federal habeas corpus relief on this
claim.
XII. Effective Assistance of Counsel fClaim No. 131
Gross alleges that he received ineffective assistance of counsel. He claims his trial counsel
should have filed motions contesting jurisdiction and the sufficiency of the indictment. He
further claims his trial counsel should have requested additional discovery, filed a motion to
suppress Abreu's identification, and a motion to reopen the motion to suppress statement.
He claims his counsel failed to investigate the police reports and do his own crime scene
analysis. He also claims his counsel failed to make arrangements for jurors to view the
crime scene. Gross alleges that, when Rivere testified regarding the map showing the
locations of the Francis Drive residence and Sanchez's burned vehicle, his counsel should
have asked for a mistrial, asked the State to produce evidence that Gross lived at the
residence, or asked the trial court to admonish the jury. Gross further claims that his
counsel was ineffective for failing to object to jury instructions. Gross also faults his counsel
for failing to raise the issue of corpus delicti.
Gross raised these arguments in his state application for post-conviction relief. Upon its
review pursuant to the standards set forth in Strickland, 466 U.S. at 668 and related state
case law, the Trial Court found that Gross failed to show prejudice resulting from his
counsel's failure to challenge jurisdiction.127 The Trial Court further found that motions to

22 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

suppress identification and Gross's statement had been previously litigated.128 The Trial
Court found that it had denied defense counsel's request for the jury to view the crime scene
and that Gross’s claim regarding counsel's investigation and preparation was purely
speculative and conclusory.129 It found that the indictment met the requirements of La.
Code Crim. P. art 464 and that counsel cross-examined Detective Rivera about the map. 130
It found that Gross failed to show any prejudice resulting from his counsel's failure to object
to the Trial Court informing the jury that he was charged with the armed robbery of both
Abreu and Sanchez and that the felony murder instruction was correct.131 Finally, the Trial
Court found that the claim that defense counsel performed deficiently in failing to raise the
corpus delicti issue was meritless as Gross's statements were corroborated by Abreu's
testimony.132 The Louisiana Fifth Circuit found Gross failed to provide both deficient
performance and prejudice.133 In the last reasoned opinion, the Louisiana Supreme Court
concluded that Gross failed to demonstrate that he received ineffective assistance of
counsel under the Strickland standards.134
A. Standards of Review under Strickland
*31 The issue of ineffective assistance of counsel is a mixed question of law and fact. Clark
v. Thaler, 673 F.3d 410, 416 (5th Cir. 2012); Woodfox v. Cain, 609 F.3d 774, 789 (5th Cir.
2010). The question for this Court is whether the state courts' denial of relief was contrary to,
or an unreasonable application of, federal law as determined by the Supreme Court.
In Strickland, the Court established a two-part test for evaluating claims of ineffective
assistance of counsel in which the petitioner must prove deficient performance and
prejudice therefrom. Strickland, 466 U.S. at 687. The petitioner has the burden of proving
ineffective assistance of counsel by a preponderance of the evidence. Montoya v. Johnson,
226 F.3d 399, 408 (5th Cir. 2000); Jernigan v. Collins, 980 F.2d 292, 296 (1992). In deciding
ineffective assistance claims, a court need not address both prongs of the conjunctive
Strickland standard, but may dispose of such a claim based solely on a petitioner's failure to
meet either prong of the test. Amos v. Scott, 61 F.3d 333, 348 (1995).
To prevail on the deficiency prong, a petitioner must demonstrate that counsel's conduct
failed to meet the constitutional minimum guaranteed by the Sixth Amendment. See Styron
v. Johnson, 262 F.3d 438, 450 (5th Cir. 2001). "The defendant must show that counsel’s
representation fell below an objective standard of reasonableness.” Strickland, 466 U.S. at
687-88. The analysis of counsel's performance must take into account the reasonableness
of counsel's actions under prevailing professional norms and in light of all of the
circumstances. See Strickland, 466 U.S. at 689; Carty v. Thaler, 583 F.3d 244, 258 (5th Cir.
2009). The reviewing court must “judge ... counsel's challenged conduct on the facts of the
particular case, viewed as of the time of counsel's conduct.” Roe v. Flores-Ortega, 528 U.S.
470, 477 (2000) (quoting Strickland, 466 U.S. at 690). Petitioner must overcome a strong
presumption that the conduct of his counsel falls within a wide range of reasonable
representation. Harrington, 562 U.S. at 104 (citing Strickland, 466 U.S. at 689). "[I]t is all too
easy to conclude that a particular act or omission of counsel was unreasonable in the harsh
light of hindsight.” Bell, 535 U.S. at 702 (citing Strickland, 466 U.S. at 689). As a result,
federal habeas courts presume that trial strategy is objectively reasonable unless clearly
proven otherwise. Strickland, 466 U.S. at 689; Johnson v. Dretke, 394 F.3d 332, 337 (5th
Cir. 2004) (counsel’s" 'conscious and informed decision on trial tactics and strategy cannot
be the basis for constitutionally ineffective assistance of counsel unless it is so ill chosen
that it permeates the entire trial with obvious unfairness.' ”) (quoting United States v. Jones,
287 F.3d 325, 331 (5th Cir. 2002)); Geiger v. Cain, 540 F.3d 303, 309 (5th Cir. 2008).
In order to prove prejudice, a petitioner “must show that there is a reasonable probability
that, but for counsel's unprofessional errors, the result of the proceeding would have been
different." Strickland, 466 U.S. at 694; Williams v. Thaler, 602 F.3d 291, 310 (5th Cir. 2010).
Furthermore, “[tjhe petitioner must ‘affirmatively prove,’ and not just allege, prejudice.” Day
v. Quarterman, 566 F.3d 527, 536 (5th Cir. 2009) (quoting Strickland, 466 U.S. at 695). In
this context, “a reasonable probability is a probability sufficient to undermine confidence in
the outcome." Cullen, 563 U.S. at 189 (quoting Strickland, 466 U.S. at. 694). This standard
requires a "substantial,” not just “conceivable,” likelihood of a different result. Harrington,
562 U.S. at 112. In making a determination as to whether prejudice occurred, courts must
review the record to determine "the relative role that the alleged trial errors played in the
total context of [the] trial.” Crockett v. McCotter, 796 F.2d 787, 793 (5th Cir. 1986). Thus,
conclusory allegations of ineffective assistance of counsel, with no showing of effect on the

23 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

proceedings, do not raise a constitutional issue sufficient to support federal habeas relief.
Miller, 200 F.3d at 282 (citing Ross v. Estelle, 694 F.2d 1008, 1012 (5th Cir. 1983)).
*32 On habeas review, the United States Supreme Court has clarified that, in applying
Strickland, “[t]he question is whether an attorney’s representation amounted to
incompetence under ‘prevailing professional norms,' not whether it deviated from best
practices or most common custom.” Harrington, 562 U.S. at 105 (citing Strickland, 466 U.S.
at 690). The Harrington Court went on to recognize the high level of deference owed to a
state court's findings under Strickland in light of AEDPA standards of review:

The standards created by Strickland and § 2254(d) are both highly
deferential, and when the two apply in tandem, review is doubly so. The
Strickland standard is a general one, so the range of reasonable applications
is substantial. Federal habeas courts must guard against the danger of
equating unreasonableness under Strickland with unreasonableness under §
2254(d). When § 2254(d) applies, the question is not whether counsel's
actions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland’s deferential standard.

Id. at 105 (citations and quotation marks omitted).
Thus, scrutiny of counsel's performance under § 2254(d) therefore is “doubly deferential.”
Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 556 U.S. 111, 112 (2009)). This
Court must therefore apply the "strong presumption” that counsel's strategy and defense
tactics fall “within the wide range of reasonable professional assistance.” Strickland, 466
U.S. at 690; Moore v. Johnson, 194 F.3d 586, 591 (5th Cir. 1999).
Federal habeas courts presume that trial strategy is objectively reasonable unless clearly
proven otherwise by the petitioner. Strickland, 466 U.S. at 689; Geiger v. Cain, 540 F.3d
303, 309 (5th Cir. 2008); Moore, 194 F.3d at 591. In assessing counsel's performance, a
federal habeas court must make every effort to eliminate the distorting effects of hindsight,
to reconstruct the circumstances of counsel's challenged conduct, and to evaluate the
conduct from counsel's perspective at the time of trial. Strickland, 466 U.S. at 689; Neal, 286
F.3d at 236-37; Clark v. Johnson, 227 F.3d 273, 282-83 (5th Cir. 2000). Tactical decisions
when supported by the circumstances are objectively reasonable and do not amount to
unconstitutionally deficient performance. Lamb v. Johnson, 179 F.3d 352, 358 (5th Cir. 1999)
(citing Rector v. Johnson, 120 F.3d 551, 564 (5th Cir. 1997) and Mann v. Scott, 41 F.3d 968,
983-84 (5th Cir. 1994)).
B. Pretrial Motions
Gross contends that attorney Jordan should have filed a motion to suppress the
identification of him by Abreu, a motion for discovery, a motion to reopen the hearing on the
motion to suppress his statements, a motion to quash the indictment as defective, and a
motion to quash the indictment.on jurisdictional grounds.
The record reflects that Gross was represented by four attorneys (Bruce Netterville, James
Williams, Mark Nolting, and Jordan) from the time he was initially charged in 2008 through
his sentencing in December 2011.135 On September 30, 2008, after an evidentiary hearing,
the Trial Court denied a motion to suppress evidence, identification and statements filed by
attorney Netterville in January 2008. 136 The Trial Court also denied Gross's pro se motions
to suppress evidence, identification, and statements.137 While those motions were litigated
under the original case, the factual basis for the crimes charged remained the same. There
was only one identification procedure related to Gross, that is a six-person photographic
line up shown to Abreu. At a deposition to perpetuate testimony for purposes of the motion
to suppress identification taken on March 27, 2008, Abreu testified that she was shown a
photographic line up and identified Gross as one of the perpetrators and that she was not
threatened or made any promises to make the identification.138 At the suppression hearing,
Bradberry testified that Abreu was shown a lineup and identified Gross.139 Additionally,
Gross's admitted to being at the apartment on the evening of the incident.140 Gross has
shown no reason why counsel should have repeated or pursued the filing of a meritless
motion nor has he shown that the outcome would have been different had Jordan refiled
such a motion. See Johnson v. Cockrell, 306 F.3d 249, 255 (5th Cir. 2002) (counsel is not

24 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

required to make futile motions or frivolous objections); Smith v. Puckett, 907 F.2d 581, 585
n. 6 (5th Cir. 1990) (“Counsel is not deficient for, and prejudice does not issue from, failure
to raise a legally meritless claim.’’); see also, Wood v. Quarterman, 503 F.3d 408, 413 (5th
Cir. 2007) (" '[fjailure to raise meritless objections is not ineffective lawyering; it is the very
opposite.’") (quoting Clark v. Collins, 19 F.3d 959, 966 (5th Cir. 1994)); Koch, 907 F.2d 524,
530 (5th Cir. 1990) (concluding that “counsel is not required to make futile motions or
objections.”).
*33 There is no merit to Gross's claim that Jordan failed to request discovery. The record
reflects that attorney Jordan filed a motion for bill of particulars and discovery and
inspection.141 The record further reflects that the prosecution provided discovery to the
defense.142
Gross next contends that attorney Jordan should have moved to re-open the hearing
related to the motion to suppress his statement based on the December 2010 disclosure of
Williams's report. Gross argues that King's counsel was successful in moving to re-open the
hearing and King's statement to Wiliams was ultimately suppressed. Gross raised the issue
of re-opening the suppression hearing on appeal and the Louisiana Fifth Circuit found
another hearing was not necessary and that Gross was not prejudiced.143 Given the
Louisiana Fifth Circuit's ruling, Gross has failed to show that Jordan was deficient in failing
to move to re-open the hearing or any resulting prejudice.
Gross next contends Jordan should have filed motions to quash the indictment as defective
and based on lack of subject matter jurisdiction due to improper venue. While Jordan did not
file such motions, attorney Nolte adopted King's counsel's motion to quash based upon
improper venue and jurisdiction.144 The record does not reflect the ruling on that motion.
Gross, however, filed multiple pro se motions to quash the indictment based on insufficiency
of the indictment and improper venue, which were denied.145
Linder Louisiana law, “[tjhe indictment shall be a plain, concise, and definite written
statement of the essential facts constituting the offense charged. It shall state for each count
the official or customary citation of the statute which the defendant is alleged to have
violated.” La. Code Crim. Proc. art. 464. The indictment in this case complied with Louisiana
law. The Bill of Indictment made reference to the date and place of the charged offenses,
the victims, and the statutory provisions that Gross was charged with having violated. 146
Counsel was not ineffective in failing to pursue a motion he likely determined to be futile or
meritless, and which would not have been successful or changed the outcome of the trial.
See Johnson, 306 F.3d at 255; Smith, 907 F.2d at 585 n. 6.
*34 In Louisiana, the issues of jurisdiction and venue are intertwined. The Louisiana
Constitution provides that the state district courts have exclusive original jurisdiction over
felony cases. La. Const, art. V, § 16(A)(2). The state constitution likewise provides, as it did
when Gross was charged, that “[ejvery person charged with a crime... is entitled to a
speedy, public, and impartial trial in the parish where the offense or an element of the
offense occurred, unless venue is changed in accordance with law." La. Const, art. I, § 16
(emphasis added). Therefore, in Louisiana, “[vjenue is jurisdictional in criminal cases.” State
v. Burnett, 768 So.2d 783, 789 (La. App. 2d Cir. 2000); see also, La. Code Crim. P. art. 615.
Louisiana law provides as follows for determining venue where an offense occurred in more
than one place:

A. All trials shall take place in the parish where the offense has been
committed, unless the venue is changed. If acts constituting an offense or
if the elements of an offense occurred in more than one place, in or out of
the parish or state, the offense is deemed to have been committed in any
parish in this state in which any such act or element occurred.

La. Code Crim. P. art. 611(A).
In this case, Sanchez was kidnapped from his residence in Jefferson Parish. While his body
was ultimately found in Orleans Parish, the record demonstrates that the offense forming the
basis of the murder occurred in Jefferson Parish. Louisiana law therefore allowed Jefferson
Parish to be a proper venue for Gross's trial. Vernon v. Cain, Civ. Action No. 07-7608, 2011

25 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https V/nextcorrectii^al. westlaw.com/Document/I2b65d2d01b3911...

WL 3268101 at *8-9 (E.D. La. Jun. 16, 2011) (Washington Parish was a proper venue under
Louisiana law where the kidnaping of the murder victim, which was the basis of the felony
murder charge, occurred in Washington Parish and her body was found in Texas), report
and recommendation adopted, 2011 WL 3240757 (E.D. La. Aug. 28, 2011). Counsel did not
act deficiently or prejudicially when he failed to urge a meritless or baseless motion. See
Smith, 907 F.2d 581, 585 n. 6; see also, Koch, 907 F.2d at 530 (5th Cir. 1990).
The state courts' denial of relief on these issues was not contrary to, or an unreasonable
application of, Strickland. Gross is not entitled to relief on this claim.
C. Crime Scene Investigation
Gross next contends that Jordan failed to conduct an "independent investigation" or
produce “independent photographs" of the crime scene and failed to successfully urge at
trial a motion to view the crime scene. He argues that the apartment parking lot was poorly
lit and the positioning of Sanchez's vehicle made it impossible for Abreu to have seen
Sanchez in the backseat of the vehicle between two assailants.147 Gross argues that
King's attorney took his own pictures and introduced them at King's trial to show the parking
lot without lighting and the view from the upstairs window of the apartment.
"A defendant who alleges a failure to investigate on the part of his counsel must allege with
specificity what the investigation would have revealed and how it would have altered the
outcome of the trial." (citation omitted) Moawad v. Anderson, 143 F.3d 942, 948 (5th Cir.
1998). In other words, a petitioner cannot show prejudice with respect to a claim that
counsel failed to investigate without adducing what the investigation would have shown.
Diaz v. Quarterman, 239 F. App'x 886, 890 (5th Cir. 2007) (citing Strickland, 466 U.S. at 696,
in recognizing that some evidence is required to show that "the decision reached would
reasonably likely have been different.”). Instead, to prevail on such a claim, the petitioner
must provide factual support as to what exculpatory evidence further investigation would
have revealed. See Moawad, 143 F.3d at 948; see also Brown v. Dretke, 419 F.3d 365, 375
(5th Cir. 2005); Davis v. Cain, No. 07-6389, 2008 WL 5191912, at *10 (E.D. La. Dec. 11,
2008) (order adopting referenced Report and Recommendation).
*35 During trial, defense counsel utilized the State's photographs depicting the parking lot
and the view from the window of the apartment in an attempt to demonstrate that Abreu
could not have seen Sanchez in the back seat of the Expedition.148 Gross does not point
to any exculpatory evidence which further investigation would have revealed to counsel. He
merely speculates that, had defense counsel taken his own photographs of the parking lot
and showing the view from the second story window, those photographs would have
demonstrated that Abreu could not have seen Sanchez's position in the vehicle. Abreu's
testimony that she saw Sanchez in the backseat between two assailants, however, was not
the only evidence that Sanchez had been kidnapped. There was also evidence that the
apartment had been ransacked, the food Sanchez purchased was found spilled on the floor,
and that the assailants left with Sanchez within seconds of him arriving at the apartment.
That evidence was consistent with Gross's statement to police that they forced Sanchez at
gun point into the Expedition. Gross also has not shown a reasonable probability that the
outcome would have been different given his statement to police and the fact that King was
convicted in spite of the introduction at his trial of defense photographs depicting the parking
lot and view from the window.
Gross also contends his counsel unsuccessfully urged a motion to view the crime scene.
He contends that his counsel failed to make any arrangements to transport the jurors or for
the jurors to enter the apartment.
The record reflects that, on the first day of trial, attorney Jordan requested that the jury be
permitted to view the apartment and parking lot.149 The Trial Court responded, "we're going
to wait and see if the jury - if they feel it's necessary for them to view the area, then we'll
make arrangements."150 Jordan renewed his request after Abreu completed her
testimony.151 After hearing argument, the Trial Court denied the request, explaining that "I
don't think anything could be added to this case by doing that. I'm going to deny your
request."152 It is clear from the Trial Court's ruling that the denial of the request was not
based on Jordan's failure to make arrangements to transport the jury or for them to enter the
apartment. Gross does not demonstrate that the Trial Court would have ruled differently had
Jordan taken such actions.

26 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https ://nextcorrecti nnal.westlaw.com/Document/I2b65d2dO lb3911...

The state courts' denial of relief on these issues was not contrary to, or an unreasonable
application of, Strickland. Gross is not entitled to relief on these claims.
D. Detective Rivere's Testimony
Gross next faults Jordan's cross-examination of Detective Rivere regarding the map
depicting the locations of Sanchez's burned vehicle and the Francis Drive residence. While
he contends that Jordan “expos[ed] the truth that the defendant didn't live at the
residence,"153 he contends that Jordan should have moved for a mistrial or to admonish
the jury or requested the State produce documents demonstrating that Gross resided at the
Francis Drive address.
The Trial Court rejected Gross's claim raised in his application for post-conviction relief,
finding “[tjhe record reflects that Jordan did cross-examine Det. Rivera regarding the map,
and connecting petitioner to the residence on Francis Drive. As previously noted in claim #4,
defendant acknowledged this on cross-examination by the State. The court finds no merit to
this claim."154 In the last reasoned opinion, the Louisiana Supreme Court found that Gross
failed to meet the Strickland standard.155
Detective Rivere testified regarding a computer generated map depicting the location of

r

Sanchez's vehicle and 4715 Francis Drive residence.156 Jordan conducted an extensive
cross-examination of Rivere regarding Gross's connection to the address.157 Rivere
admitted that there were no utility bills tying Gross to the residence and that he had no
records showing that Gross lived there.158 Rivere also admitted that he was not sure if
there was any independent confirmation that Gross lived at the address and that he had no
firsthand knowledge that Gross even frequented the address.159
*36 Under Louisiana law, a mistrial is available when a remark or comment falls directly or
indirectly into one of four categories: “(1) Race, religion, color or national origin, if the remark
or comment is not material and relevant and might create prejudice against the defendant in
the mind of the jury; (2) Another crime committed or alleged to have been committed by the
defendant as to which evidence is not admissible; (3) The failure of the defendant to testify
in his own defense; or (4) The refusal of the judge to direct a verdict.” La. Code Crim. R art.
770. When a witness's remark or comment falls outside of these categories, the State or the
defense may request that the court admonish the jury to disregard an irrelevant, immaterial,
or potentially prejudicial remark. La. Code Crim. P. art. 771. In the latter case, a mistrial may
be granted only if the court is satisfied that an admonition is insufficient to assure a fair trial.
Id.
In this case, Rivere's testimony did not fall within the categories of comments requiring an
admonishment or a mistrial, and did not compel a request for an admonishment or a motion
for mistrial by Gross's counsel. Counsel was not deficient in failing to move for an
admonishment or a mistrial when Louisiana law did not support such a motion. See Smith,
907 F.2d at 585 n.6; Koch, 907 F.2d at 530.
As to the suggestion that Jordan should have asked the Trial Judge to tell the jury to
disregard the evidence related to the map, this would have been prohibited by La. Code
Crim. P. art. 772, which provides that "[tjhe judge in the presence of the jury shall not
comment upon the facts of the case, either by commenting upon or recapitulating the
evidence, repeating the testimony of any witness, or giving an opinion as to what has been
proved, not proved, or refuted.”
The state courts' denial of relief on these issues was not contrary to, or an unreasonable
application of, Strickland. Gross is not entitled to relief on these claims.
E. Object to Jury Instructions
Gross next claims his counsel should have objected to the jury instructions. He contends
Jordan should have objected to a jury instruction which stated that Gross was charged with
the armed robbery of Maria Abreu and Javier Sanchez when the indictment only charged
Gross with the armed robbery of Maria Abreu. He also claims counsel should have objected
to the Trial Court reading to the jury the entire “felony murder” portion of La. Rev. Stat. §
14:30.1 instead of just the part relating to second degree kidnapping. He claims that the
instruction led to the jury being confused as to an essential element of the felony murder
offense.

27 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WestlawNext

https://nextcorrectinnal.westlaw.com/Document/I2b65d2d01b3911...

The Trial Court found that, while Jordan should have objected to the instruction regarding
armed robbery, Gross failed to show any resulting prejudice. It found that the jury was
properly instructed as to the charge of felony murder and there was “no deficiency in
counsel's performance, as the court read verbatim the statute which defendant was
charged, which was a correct statement of law” and no prejudice.160 The Louisiana Fifth
Circuit agreed with the Trial Court's findings.161 The Louisiana Supreme Court found Gross
failed to meet his burden under Strickland.162
Gross challenged the jury charges in his application for post-conviction relief, and, as
outlined above, the Louisiana Supreme Court rejected the claim as procedurally barred. 163
Nevertheless, in order to determine whether counsel should have objected, the Court must
consider the propriety of the charges.
In order to determine whether the language of a jury charge amounts to a constitutional
error, the Court must determine whether the instructions, when read as a whole, relieved the
State of its burden to prove each element of the crime beyond a reasonable doubt in
violation of the principles set forth in In re Winship, 397 U.S. 358 (1970). See Francis v.
Franklin, 471 U.S. 307, (1985). In doing so, the Court must consider whether the specific
language involved creates a constitutionally objectionable "mandatory presumption” or
“merely a permissive inference” on an essential element of the crime. Franklin, 471 U.S. at
314.
*37 The mere use of an erroneous instruction to the jury is not a basis for federal habeas
relief. Estelle, 502 U.S. at 62. Instead, the Court must focus on “whether the ailing
instruction by itself so infected the entire trial process that the resulting conviction violates
due process.” Id. at 72 (citations omitted). In examining the challenged instruction, the Court
does not look at it in “artificial isolation,” but must consider it in the "context of the
instructions as a whole and the trial record." Id. Finally, when there is a question as to
whether a jury instruction is ambiguous and violates due process by relieving the State of
the burden of proof of an element of a crime, the question before the Court is “whether there
is a reasonable likelihood that the jury has applied the challenged instruction in a way that
violates the Constitution.” Id. (citations omitted); accord Flowers v. Blackburn, 779 F.2d 1115
(5th Cir. 1986).
If the charge amounts to error, the Supreme Court has held that the error is subject to a
harmless error analysis finding jury charge challenges to be trial error and not structural
error. California v. Roy, 519 U.S. 2, 5-6 (1996) (citing Kotteakos v. United States, 328 U.S.
750, 66 S.Ct. 1239, 90 L.Ed. 1557 (1946)). The applicable test is whether the instruction
“had a substantial and injurious effect or influence in determining the jury's verdict.” Brecht v
Abrahamson, 507 U.S. 619 (1993); Roy, 519 U.S. at 6; O'Neal v. McAninch, 513 U.S. 432,
436 (1995).
Upon application, when a federal judge in a habeas proceeding is in grave doubt about
whether trial error of federal constitutional law had substantial and injurious effect or
influence in determining the jury's verdict, that error is not harmless, and petitioner must be
granted relief. O'Neal, 513 U.S. at 436. Therefore, this Court on habeas review is required to
determine whether the armed robbery and second degree murder charges given in Gross's
case amounted to constitutional error. Only if it did would the Court need to consider
whether the error was harmless.
At the close of trial, the Trial Court instructed the jury as follows:

Second degree murder is the killing of a human being, one, when the
offender has a specific intent to kill or inflict great bodily harm, or two, when
the offender is engaged in the perpetration or attempted perpetration of
aggravated rape, forcible rape, aggravated arson, aggravated burglary,
aggravated kidnapping, second degree kidnapping, aggravated escape,
assault by a drive-by shooting, armed robbery, first degree robbery, second
degree robbery, simple robbery, cruelty to juveniles, terrorism, even though
he had no specific intent to kill or to inflict great bodily harm.164

With regard to the armed robbery charge, jury was charged that “[tjhe Defendant is charged

28 of 37

10/5/20, 7:59 PM

Gross v. Vannoy | WesdawNext

https://nextcorrectinnal.westlaw.com/Document/I2b65d2d01b3911...

with the armed robbery of Javier Sanchez and Maria Abreu.*165
Under Louisiana law, the murder instruction provided is an accurate definition of felony
murder and was verbatim from the statute. La. Rev. Stat. § 14:30.1; State v. Smith, 793
So.2d 1199, 2001 WL 744000, at *29-30 (La. 2001) (finding no merit to defendant's claim
relating to the trial court's felony murder instruction which included all of the felonies
enumerated in the statute, some of which could not be supported by the evidence), cert,
denied, 535 U.S. 937 (2002). Gross contends, however, because the jury was charged that
he committed an armed robbery of both Abreu and Sanchez, the jury may have found that
the underlying felony was the armed robbery of Sanchez. The portion of the armed robbery
instructions that charged Gross with the armed robbery of Sanchez as well as Abreu was
erroneous and defense counsel should have objected. Gross has not established that the
error was of such magnitude as to undermine confidence in the jury's verdict and to
overcome the deference afforded to the state court determination that Gross did not show
prejudice as a result of his counsel's failure to object.
*38 The indictment, which was read to the jury 166 , charged Gross with the second degree
murder committed during the commission of Sanchez's kidnapping and the armed robbery
of Abreu. Gross does not contest that there was sufficient evidence demonstrating that he
committed the armed robbery of Abreu and the evidence overwhelmingly established that he
did so. As discussed in the Court's analysis of the sufficiency of the evidence, the record,
which included Gross's admission that he, King and the third perpetrator forced Sanchez
into the vehicle at gunpoint and drove to New Orleans Parish, supports a finding that
Sanchez's murder occurred during the commission of a kidnapping. While Gross speculates
that the jury could have found the underlying felony to be the armed robbery of Sanchez,
such speculation is not enough to create grave doubt in the mind of the Court regarding the
validity of the jury's verdict. It is clear from the record that the State’s theory was that the
predicate felony was Sanchez's kidnapping. Based on the reading of the indictment and the
questioning of witnesses, the jury was well aware that the State's theory was that Gross
kidnapped Sanchez and that the kidnapping, rather than any armed robbery of Sanchez,
formed the basis of the felony murder charge.
While the charge was erroneous, there is no showing of a reasonable likelihood that the
error "had a substantial and injurious effect or influence in determining the jury's verdict."
Brecht, 507 U.S. at 637-38. "If an error is shown to be harmless, then the error cannot
satisfy the prejudice prong of Strickland." Johnson v. Blackburn, 778 F.2d 1044, 1050 (5th
Cir. 1985). Given that the charge was harmless error, Gross cannot establish that counsel's
failure to object to the charge was prejudicial under Strickland. Id.: Riggins v. Butler, 705
F.Supp. 1205, 1212 (E D. La. 1989).
The state courts' denial of relief on this claim was not contrary to or an unreasonable
application of Supreme Court law. Gross is not entitled to relief on this issue.
F. Corpus delicti
As his final claim of ineffective assistance of counsel Gross faults attorney Jordan for failing
to argue that the State failed to prove the corpus delicti of felony-murder, i.e., the
commission of second degree kidnaping. Gross contends that his confession could not be
used as the sole means to support his conviction and that Abreu's testimony was insufficient
to prove that he and the other perpetrators kidnapped Sanchez prior to his murder.
The Trial Court found Gross's statements were corroborated by Abreu's testimony at trial
and there was no deficiency in counsel's performance or resulting prejudice.167 The
Louisiana Fifth Circuit agreed and noted that it had previously considered the sufficiency of
the evidence and found it was sufficient to sustain Gross' conviction for second degree
murder.168 The Louisiana Supreme Court found Gross failed to meet his burden under
Strickland. 169
Louisiana's corpus delicti rule requires that there is evidence other than the accused's
confession that a criminal act was committed by someone. State v. Martin, 645 So.2d 190,
195 (La. 1994); State v. Chism, 3 So.3d 41, 49 (La. App. 5th Cir. 2008). To satisfy the corpus
delicti rule, the State must prove the injury specified in the crime occurred and that the injury
was caused by someone's criminal activity involved in the charged crime. Chism, 3 So. 3d at
49 (citing State v. Thibodeaux, 750 So.2d 916, 927 (La. 1999)). “ 'Corroborating evidence
need only show the essential injury involved in the charged crime (e.g., death caused by

29 of 37

10/5/20, 7:59 PM

https://nextcorrectional.westlaw.com/Document/I2b65d2d01b3911...

Gross v. Vannoy | WestlawNext

criminal activity in a murder charge) in order to establish the reliability of the inculpatory
statements of the accused; the corroborating evidence need not show every element in the
definition of the charged crime (e.g., the predicate felony in a felony murder).’" Id. at 49-50
(citing Martin, 645 So.2d at 195).
In this case, Gross does not contest that the evidence demonstrated that Sanchez died as
the result of a gunshot wound. Sanchez’s kidnapping prior to his murder was established by
evidence independent of Gross's inculpatory statements. Abreu testified that she heard
something drop to the floor when Sanchez returned and, seconds later, saw the Expedition
drive off with Sanchez in the back seat between two of the perpetrators. Her testimony
corroborated Gross's statement that they forced Sanchez at gunpoint into the back seat of
the Expedition.
*39 Gross was not convicted on the basis of his statements alone. Evidence independent of
his statements established that Sanchez was kidnapped prior to his murder. As a result,
Gross fails to demonstrate deficient performance by counsel or resulting prejudice.
The state courts' denial of relief on this claim was not contrary to or an unreasonable
application of Supreme Court law. Gross is not entitled to relief on this issue.
X. Recommendation
For the foregoing reasons, it is RECOMMENDED that Gross's petition for the issuance of a
writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 be DISMISSED WITH
PREJUDICE.
A party's failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge's report and recommendation within fourteen (14)
days after being served with a copy shall bar that party, except upon grounds of plain error,
from attacking on appeal the unobjected-to proposed factual findings and legal conclusions
accepted by the district court, provided that the party has been served with notice that such
consequences will result from a failure to object. Douglass v. United Servs. Auto. Ass'n, 79
F.3d 1415, 1430 (5th Cir. 1996). 170
All Citations
Not Reported in Fed. Supp., 2018 WL 7075234

Footnotes
1

Under 28 U.S.C. § 2254(e)(2), an evidentiary hearing is held only when the
petitioner shows that either the claim relies on a new, retroactive rule of
constitutional law that was previously unavailable or a factual basis that could
not have been previously discovered by the exercise of due diligence and the
facts underlying the claim show by clear and convincing evidence that, but for
the constitutional error, no reasonable jury would have convicted the petitioner.

2

Rec. Doc. No. 4.

3

St. Rec. Vol. 14 of 20, Hearing Transcript, 9/29/08.

4

St. Rec. Vol. 14 of 20, Hearing Transcript, 8/30/13.

5

St. Rec. Vol. 1 of 20, Grand Jury Return, 2/10/11; Bill of Indictment, 2/10/11.

6

St. Rec. Vol. 1 of 20, Minute Entry, 2/11/11.

7

The facts were taken from the published opinion of the Louisiana Fifth Circuit
Court of Appeal on direct appeal. State v. Gross, 110 So.3d 1173 (La. App.
5th Cir. 2013); St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73 C/W 12KH-826, 2/21/13.

8

St. Rec. Vol. 1 of 20, Motion to Suppress Identification, 3/14/11 (dated 3/9/11);
Defendant's Motion for Injunction, 3/14/11 (dated 3/10/11); Motion to Quash
Indictment, 3/14/11 (dated 3/10/11); Memorandum in Support of Motion to
Dismiss and Bar Prosecution, 6/15/11 (dated 6/12/11); Defendant's
Submission of Questions to be Asked on Direct-Examination of Absent
Defense Witness, 6/23/11 (dated 6/20/11); Defendant's Supplemental and

30 of 37

10/5/20, 7:59 PM

https://nextcorrecti''~'|l. westlaw.com/Docurnent/I2b65d2d01b3911...

Gross v. Vannoy | WesdawNext

Exhibits to Adopted Motion to Quash Indictment, 8/11/11 (dated 8/211);
Defendant's Motion to Compel Suppress Identification, 8/17/11 (dated
8/14/11); St. Rec. Vol. 2of20, Petition for a Writ of Habeas Corpus, 9/15/11
(dated 9/13/11).
9

St. Rec. Vol. 2 of 20, 5th Cir. Order, 11-K-1014, 10/27/11; 5th Cir. Order, 11K-1015, 10/27/11.

10

St. Rec. Vol. 2 of 20, Trial Minutes, 11/15/11; Trial Minutes 11/16/11; Trial
Minutes, 11/17/11; Verdict, 11/17/11; St. Rec. Vol. 11 of 20, Trial Transcript,
11/15/11, Trial Transcript 11/16/11; St. Rec. Vol. 12 of 20, Trial Transcript
(con't), 11/16/11; Trial Transcript, 11/17/11; St. Rec. Vol. 13 of 20, Trial
Transcript (con't), 11/17/11.

11

St. Rec. Vol. 2 of 20, Sentencing Minutes, 12/9/11; St. Rec. Vol. 13 of 20,
Sentencing Transcript, 12/9/11.

12

St. Rec. Vol. 2 of 20, Appeal Brief, 12-KA-0073, 3/30/12; St. Rec. Vol. 3 of 20,
Appeal Brief (con't), 12-KA-0073, 3/30/12.

13

St. Rec. Vol. 2 of 20, Pro Se Appeal Brief, 12-KA-0073, 10/19/12.

14

St. Rec. Vol. 2 of 20, Motion to Supplement and for Leave to File an Amended
Brief, 8/22/12.

15

St. Rec. Vol. 2 of 20, Court Reporter Certification, 9/17/12.

16

St. Rec. Vol. 2 of 20, 5th Cir. Opinion, 12-KH-747, 10/24/12.

17

State v. Gross, 110 So. 3d 1173 (La. App. 5th Cir. 2013); St. Rec. Vol. 3 of 20,
5th Cir. Opinion, 12-KA-73, C/W12-KH-826, 2/21/13.

18

State v. Gross, 124 So. 3d 1091 (La. 2014); St. Rec. Vol. 17 of 20, La. S. Ct.
Order, 2013-KO-0661, 10/25/13; La. S. Ct. Application for Writ, 13 KO 661,
3/26/13 (dated 3/21/13).

19

St. Rec. Vol. 3 of 20, Application for Post-Conviction Relief, 4/9/14 (dated
4/4/14); St. Rec. Vol. 4 of 20, Application for Post-Conviction Relief (con't),
4/9/14 (dated 4/4/14).

20

St. Rec. Vol. 4 of 20, Supplemental Application for Post-Conviction Relief,
4/28/14.

21

St. Rec. Vol. 4 of 20, State's Procedural Objections to Willie Gross's
Application for Post-Conviction Relief, 7/28/14; St. Rec. Vol. 5 of 20, State's
Procedural Objections to Willie Gross's Application for Post-Conviction Relief
(con't), 7/28/14.

22

Petitioner's Opposition to State's Procedural Objections to his Application for
Post-Conviction Relief, 8/8/14.

23

St. Rec. Vol. 5 of 20, Trial Court Order, 8/15/14.

24

St. Rec. Vol. 5 of 20, State's Motion for Stay of Consideration of the Merits of
Petitioner's Post-Conviction Application Pending the Finality of the Court's
Rulings on the Respondent's Procedural Objections, 9/8/14; Trial Court Order,
9/11/14; Petitioner's Objection to State's Motion to Stay of Consideration of the
Merits of Petitioner's Post Conviction Application and Notice of Intent to
Appeal, 9/18/14 (postmarked 9/16/14); Trial Court Order, 9/25/14.

25

St. Rec. Vol. 5 of 20, 5th Cir. Order, 14-KH-712, 11/4/14.

26

St. Rec. Vol. 5 of 20, Trial Court Order, 11/6/14.

27

St. Rec. Vol. 17 of 20, La. S. Ct. Writ Application, 14 KH 2580, 12/10/14; St.
Rec. Vol. 18 of 20, La. S. Ct. Writ Application, 14 KP 2640, 12/18/14; St. Rec.
Vol. 6 of 20, Supplement to State's Writ Application, 14 KP 2640, 6/2/15.

28

31 of 37

State v. Gross, 171 So.3d 924 (La. 2015) (per curiam); St. Rec. Vol. 18 of 20,

10/5/20, 7:59 PM

https ://nextcorrectif'nal.westlaw.com/Document/I2b65d2dO lb3911...

Gross v. Vannoy | WestlawNext

La. S. Ct. Order, 14-KP-2640, 6/1/15.

29

St. Rec. Vol. 5 of 20, Motion to Amend Post Conviction Relief Application
Claim #9, 1/29/15 (dated 1/24/15); Amendment to Claim #9 of P.C.R., 1/29/15;
Trial Court Order, 2/6/15.

30

St. Rec. Vol. 6 of 20, State's Response to Willie Gross’s Application for PostConviction Relief, 8/24/15; St. Rec. Vol. 7 of 20, State's Response to Wllie
Gross's Application for Post Conviction Relief (con't), 8/24/15.

31

St. Rec. Vol. 7 of 20, Supplement to Claim #11, 7/27/15 (postmarked 7/23/15);
Petitioner's Traverse in Opposition to State's Response to his Application for
Post Conviction Relief, 8/14/15 (dated 8/11/15).

32
33

St. Rec. Vol. 7 of 20, Trial Court Order, 2/17/16,
St. Rec. Vol. 7 of 20, 5th Cir. Order, 16-KH-159, 5/5/16; 5th Cir. Writ
Application, 16-KH-159, 3/22/16 (dated 3/16/16).

34

State ex ret. Gross v. State, 227 So.3d 282 (La. 2017); St. Rec. Vol. 19 of 20,
La. S. Ct. Order, 16-KH-1088, 9/29/17; La. S.Ct. Writ Application, 16 KH 1088,
6/13/16 (dated 6/2/16); St. Rec. Vol. 20 of 20, La. S. Ct. Writ Application, 16
KH 1088 (con't), 6/13/16 (dated 6/2/16).

35

Rec. Doc. No. 4.

36

Rec. Doc. No. 16.

37

The AEDPA comprehensively revised federal habeas corpus legislation,
including 28 U.S.C. § 2254, and applied to habeas petitions filed after its
effective date, April 24, 1996. Flanagan v. Johnson, 154 F.3d 196, 198 (5th Cir.
1998) (citing Lindh v. Murphy, 521 U.S. 320 (1997)). The AEDPA, signed into
law on that date, does not specify an effective date for its non-capital habeas
corpus amendments. Absent legislative intent to the contrary, statutes become
effective at the moment they are signed into law. United States v. Sherrod, 964
F.2d 1501, 1505 n.11 (5th Cir. 1992).

38

The Fifth Circuit has recognized that a “mailbox rule” applies to pleadings,
including habeas corpus petitions filed after the effective date of the AEDPA,
submitted to federal courts by prisoners acting pro se. Under this rule, the date
when prison officials receive the pleading from the inmate for delivery to the
court is considered the time of filing for limitations purposes. Coleman v
Johnson, 184 F.3d 398, 401 (5th Cir. 1999); Spotville V. Cain, 149 F.3d 374,
378 (5th Cir. 1998); Cooper v. Brookshire, 70 F.3d 377, 379 (5th Cir. 1995).
The clerk of this Court docketed Gross's petition on May 14, 2018, and the
case later was opened June 1,2018 when Gross paid the filing fee. Gross
certified under penalty of perjury that he placed the original pleadings into the
prison mail system on May 10, 2018. Rec. Doc. No. 4-2, p. 221. He has
declared this to be the date on which he delivered the pleadings to prison
officials for mailing. The fact that he later paid the filing fee does not alter the
application of the federal mailbox rule to his pro se petition. See Cousin v.
Lensing, 310 F.3d 843, 847 (5th Cir. 2002) (mailbox rule applies even if the
filing fee is not paid at time of mailing) (citing Spotville, 149 F.3d at 376).

39

Rec. Doc. No. 16.

40

Rec. Doc. 4, pp. 1-12, 14, 16.

41

The Supreme Court vacated the Fifth Circuit's opinion on grounds that a court
of appeals is not required to raise the procedural default argument sua sponte.
Id.

42

Rec. Doc. 4-2, pp. 15-29. On September 13, 2013, the state district court
denied King's motion for judgment of acquittal but granted his motion for new
trial finding that there were no witnesses to the murder and that Abreu was the
only witness to the events that occurred in the apartment and that there were
many inconsistencies in her testimony. Id., at p. 18. While the Louisiana Fifth

32 of 37

10/5/20, 7:59 PM

https://nextcorrectionqI.westlaw.com/Document/I2b65d2d01b3911...

Gross v. Vannoy | WesdawNext

Circuit reversed, the Louisiana Supreme Court reinstated the district court
ruling. State v. King, 232 So.3d 1207 (La. 2017). The record does not reflect
whether a new trial has occurred.
43

St. Rec. Vol. 6 of 20, State's Response to Willie Gross's Application for PostConviction Relief, Ex. 13 (Deposition Transcript of Eugenia Abreu dated March
27, 2008), 8/24/15.

44

Rec. Doc. 4-2, p. 17.

45

State Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for
Post-Conviction Relief, Exh. 2 (Jefferson Parish Sheriffs Office Transcribed
Audio Tape Statement Form taken 12/6/07), p. 6, 7/24/15.

46

Id.

47

Id.

48

St. Rec. Vol. 11 of 20, Trial Transcript, p. 13, 19, 11/15/11; Trial Transcript, p.
10, 11/16/11; St. Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 11/16/11.

49

St. Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 88-90, 11/16/11.

50

St. Rec. Vol. 11 of 20, Trial Transcript, pp. 11-13, 29-31, 37-41, 11/15/11.

51

As was the case on his direqt appeal to the Louisiana Fifth Circuit, Gross does
not appear to contest the sufficiency of the evidence to sustain his armed
robbery conviction. He only addresses his second degree murder conviction
argues that “no rational trier of fact could have found that the state bore its
burden of proving the element of felony murder or intent beyond a reasonable
doubt." Rec. Doc. 4-2, pp. 10-11.

52

Gross, 110 So.3d at 1179-81; St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73
C/W 12-KH-826, pp. 8-13, 2/21/13.

53

State Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 77-78, 95, 11/16/11.

54

Id., at pp. 81-85, 87-88.

55

Id., at pp. 86-87, 106, 132.

56

Id., at pp. 88-90, 104, 133.

57

State Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for
Post-Conviction Relief, Exh. 2 (Jefferson Parish Sheriffs Office Transcribed
Audio Tape Statement Form taken 12/6/07), p. 6, 7/24/15; State Rec. Vol. 12
of 20, Trial Transcript (con't), p. 173, 11/16/11.

58

State Rec. Vol. 11 of 20, Trial Transcript, State Rec. Vol. 12 of 20, Trial
Transcript (con't), pp. 151-152, 11/16/11.

59

State Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for
Post-Conviction Relief, Exh. 2 (Jefferson Parish Sheriffs Office Transcribed
Audio Tape Statement Form taken 12/6/07), p. 7, 7/24/15.

60

61

Id., at p. 8.
Gross, 110 So. 3d at 118-2-84; St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12KA-73 C/W 12-KH-826, pp. 13-15, 2/21/13.

62

Id., at 1183-84; St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73 C/W 12KH-826, pp. 15-16, 2/21/13.

63

ld.\ St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73 C/W 12-KH-826, p. 16,
2/21/13.

64

State Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 158, 201-203, 2011,
11/16/15.

65

33 of 37

Id., at pp. 158, 208.

10/5/20, 7:59 PM

https ://nextcorrectj ^nal. westlaw.com/Document/I2b65d2dO lb3911...

Gross v. Vannoy | WesdawNext

66

Id., at pp. 158, 209.

67

Id., at pp. 200-201, 209-213.

68

State Rec. Vol: 12 of 20, Trial Transcript, pp. 16-20, 11/17/15.

69

State Rec. Vol. 12 of 20, Trial Transcript (con't), p. 203, 2011, 11/16/15; State
Rec. Vol. 12 of 20, Trial Transcript, pp. 19-20, 11/17/15.

70

Those motions were filed in the original case 08-0002 and are not a part of the
record.

71

St. Rec. Vol. 14 of 20, Hearing Transcript, 9/29/08.

72

St. Rec. Vol. 14 of 20, Hearing Transcript, p. 6, 8/30/10.

73

St. Rec. Vol. 1 of 20, Omnibus Motions and Order for Pretrial-Motions, 2/15/11.

74

St. Rec. Vol. 1 of 20, Motion to Adopt Co-Defendant's Motions, Subpoenae,
Subpoena Duces Tecum, 3/2/11.

75

St. Rec. Vol. 1 of 20, Motion to Suppress the Confession, 3/14/11; Defendant's
Motion to Compel Suppress Statement Hearing, 8/117/11 (dated 8/14/11)

76

Rec. Doc. 4-8, Exh. 6 (Transcript, 3/3/11).

77

Gross, 110 So. 3d at 1184-87; State Rec. Vol. 3 of 20, 5th Cir. Opinion, 12KA-73 C/W12-KH-826, pp. 16-22, 2/21/13.

78

Id. at 1187; State Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73 C/W 12KH-826, p. 22, 2/21/13.

79

St. Rec. Vol. 14 of 20, Hearing Transcript, 8/30/10.

80

State Rec. Vol. 14 of 20, Suppression Hearing Transcript, pp. 26-27, 30-35,
37, 8/30/10.

34 of 37

81

Id., at p. 32.

82

Id., at pp. 27-28, 35-37, 46.

83

Id., at pp. 27-29, 37.

84

St. Rec. Vol. 13 of 20, Trial Transcript (con't), pp. 183-84, 11/17/11.

85

Id.

86

Id., at pp. 181-82.

87

St. Rec. Vol. 14 of 20, Hearing Transcript, pp. 50-54, 60, 8/30/10.

88

Id., at pp. 51, 57-58, 63, 70.

89

St. Rec. Vol. 12 of 20, Trial Transcript, p. 67, 11/17/11.

90

Id., at pp. 67-68.

91

Id., at 67-68, 75-77.

92

St. Rec. Vol. 12 of 20, Trial Transcript (con't), 11/16/11.

93

Id., at pp. 167-68, 190-91.

94

Id., at 167, 193.

95

Id., at 193.

96

Id., at pp. 168-71.

97

Id., at p. 171.

98

Id., pp. at 190-91.

10/5/20, 7:59 PM

https ://nextcorrectir>n al.westlaw.com/Document/I2b65d2dO lb3911...

Gross v. Vannoy | WestlawNext

99

Rec. Doc. 4-2, p. 71.

100

St. Rec. Vol. 7 of 20, Trial Court Order, p. 2, 2/17/16.

101

St. Rec. Vol. 7 of 20, 5th Cir. Opinion, 16-KH-159, p. 3, 5/5/16.

102

State ex ret. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

103

St. Rec. Vol. 10 of 20, Ex Part Application for Certification of Materiality of Outof-State Witness, 9/2/11.

104

Id., at p. 5.

105

Rec. Doc. 4-2, p. 71.

106

St. Rec. Vol. 7 of 20, Trial Court Order, p. 2, 2/17/16.

107

St. Rec. Vol. 7 of 20, 5th Cir. Opinion, 16-KH-159, pp. 4-5, 5/5/15.

108

State ex rel. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

109

St. Rec. Vol. 11 of 20, Trial Transcript, pp. 48-55, 11/15/11.

110

Id., at p. 49.

111

Id., at p. 51.

112

Id., at pp. 54, 56-57.

113

Id., at pp. 51, 53, 56.

114

St. Rec. Vol. 12 of 20, Trial Transcript, pp. 76-77, 11/17/11.

115

Rec. Doc. 4-8, Exh. 8, p. 2.

116

State Rec. Vol. 6 of 20, State's Response to Willie Gross's Application for
Post-Conviction Relief, Exh. 2 (Jefferson Parish Sheriffs Office Transcribed
Audio Tape Statement Form taken 12/6/07), p. 2, 7/24/15.

117

Id., at p. 7.

118

St. Rec. Vol. 6 of 20, State's Response to WIlie'Gross's Application for PostConviction Relief, Exh. 3 (Orleans Parish Assessor's Office Owner and Parcel
Information dated 7/20/15), 7/24/15.

119

St. Rec. Vol. 13 of 20, Trial Transcript (con't ), pp. 145-47, 11/17/11.

120

Rec. Doc. 4-9, p. 14.

121

St. Rec. Vol. 7 of 20, Trial Court Order, p. 3,2/17/16.

122

St. Rec. Vol. 7 of 20, 5th Cir. Opinion, 16-KH-159, pp. 5-6 (citing State v.
Gross, 110 So.3d at 1190 and State v. Gross, 12-KH-747 (La. App. 5th Cir.
Nov. 24, 2012) (unpublished)), 5/5/16.

123

Id., at p. 6.

124

State ex rel. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

35 of 37

125

St. Rec. Vol. 2 of 20, Minute Entry, 11/14/11.

126

St. Rec. Vol. 2 of 20, Court Reporter Certification, 9/17/12.

127

St. Rec. Vol. 7 of 20, Trial Court Order, p. 4, 2/17/16.

128

Id.

129

Id.

10/5/20, 7:59 PM

https V/nextcorrectj''" RLwestiaw.com/Docurnent/I2b65d2d01b3911...

Gross v. Vannoy | WestiawNext

130

Id.

131

Id. at pp. 4-5.

132

Id., at p. 5.

133

St. Rec. Vol. 7 of 20, 5th Cir. Order, 16-KH-159, p. 6-8, 5/5/16.

134

State ex rel. Gross, 227 So. 3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
2016-KH-1088, 9/29/17.

135

St. Rec. Vol. 1 of 20, Request for Appointment of Counsel, 2/14/11; Motion
and Order to Enroll, 8/19/11; St. Rec. Vol. 6 of 20, State's Response to Willie
Gross's Application for Post-Conviction Relief, Exh. 5 (Motion to Wthdraw,
1/20/09), Exh. 6 (Motion to Enroll as Counsel, 1/6/09 and Order Enrolling
Counsel, 1/23/09), Exh. 7 (Motion to Wthdraw, 7/7/10 and Order, 7/9/10); Exh.
8 (Request for Appointment of Counsel, 7/26/10), Exh. 9 (Motion to Wthdraw,
9/8/10), Ex. 10 (Motion and Order to Enroll, 8/30/10), 7/24/15.

136

St. Rec. Vol. 14 of 20, Suppression Hearing Transcript, 9/28/08; St. Rec. Vol. 6
of 20, State's Response to Willie Gross's Application for Post-Conviction
Relief, Exh. 11 (Motion to Suppress the Evidence, Confession and
Identification, 1/22/08), 7/24/15.

137

St. Rec. Vol. 14 of 20, Hearing Transcript, 8/30/10; Hearing Transcript, pp. 5-6,
8/30/10.

138

St. Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for PostConviction Relief, Exh. 13, 7/24/15.

139

St. Rec. Vol. 14 of 20, Hearing Transcript, pp. 17-18, 9/29/08.

140

St. Rec. Vol. 12 of 20, Trial Transcript, pp. 98-100, 11/17/11.

141

St. Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for PostConviction Relief, Exh. 14 (Motion for Bill of Particulars and Discovery and
Inspections, 8/30/10), 7/24/15.

142

St. Rec. Vol. 6 of 20, State's Response to Wllie Gross's Application for PostConviction Relief, Exh. 15 (Notice of Discovery Provided to Defense, 8/27/10),
Exh. 16 (Letter, 12/13/10), Exh. 17 (Letter, 11/30/10), Exh. 18 (Letter, 2/3/11),
7/24/15.

143

Gross, 110 So. 3d at 1187; St. Rec. Vol. 3 of 20, 5th Cir. Opinion, 12-KA-73
C/W 12-KH-826, p. 22, 2/21/13.

144

St. Rec. Vol. 11 of 20, Hearing Transcript, 8/1/11.

145

St. Rec. Vol. 2 of 20, Defendant's Motion to Quash Indictment, 11/7/11 (dated
11/2/11); Trial Court Order, undated (imaged 11/18/11); Motion to Quash
Indictment, 11/7/11 (dated 11/2/11); Trial Court Order, undated (imaged
11/18/11); Defendant's Motion to Quash Indictment (Error Patent), 11/7/11
(dated 11/2/11); Trial Court Order, undated (imaged 11/18/11); Defendant's
Motion to Quash Indictment (Defective Recitals), 11/14/11, (dated 11/5/11),
Trial Court Order, undated (imaged 11/14/11).

146

St. Rec. Vol. 1 of 20, Bill of Indictment, 2/10/11.

147

Rec. Doc. 4-2, p. 172.

148

St. Rec. Vol. 11 of 20, Trial Transcript, pp. 43-45, 11/16/11; State of Louisiana's
Exhibit List, 11/15/11; St. Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 128-,
11/16/11.

36 of 37

149

St. Rec. Vol. 11 of 20, Trial Transcript, p. 5, 11/15/11.

150

Id.

151

St. Rec. Vol. 12 of 20, Trial Transcript (con't), pp. 180-82, 11/16/11.

10/5/20, 7:59 PM

https://nextcorrectio~iLwesdaw.com/Docurnent/I2b65d2d01b3911...

Gross v. Vannoy | WesdawNext

152

Id., at p. 182.

153

Rec. Doc. 4-2, p. 177.

154

St. Rec. Vol. 7 of 10, Trial Court Order, p. 4, 2/17/16.

155

State ex rel. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

156

St. Rec. Vol. 11 of 20, Trial Transcript, pp. 49-50, 11/15/11.

157

Id., at pp. 50-56.

158

Id., at pp. 51, 53.

159

Id.

160

St. Rec. Vol. 7 of 20, Trial Court Order, pp. 4-5, 2/17/16.

161

St. Rec. Vol. 7 of 20, 5th Cir. Opinion, 16-KH-159, pp. 7-8, 5/5/16.

162

State ex rel. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

163

Gross, 171 So.3d at 924; St. Rec. Vol. 18 of 20, La. S. Ct. Order, 14-KP-2640,
6/1/15.

164

St. Rec. Vol. 2 of 20, General Criminal Jury Charges, pp. 9-10, 11/22/11; St.
Rec. Vol. 13 of 20, Trial Transcript, p. 194, 11/17/11.

165

Id., at p. 12; St. Rec. Vol. 13 of 20, Trial Transcript, p. 195, 11/17/11.

166

St. Rec. Vol. 2 of 20, Minutes, 11/15/11.

167

St. Rec. Vol. 7 of 20, Trial Court Order, p. 5, 2/17/16.

168

St. Rec. Vol. 7 of 20, 5th Cir. Opinion, 16-KH-159, p. 8, 5/5/15.

169

State ex rel. Gross, 227 So.3d at 282; St. Rec. Vol. 19 of 20, La. S. Ct. Order,
16-KH-1088, 9/29/17.

170

Douglass referenced the previously applicable ten-day period for the filing of
objections. Effective December 1,2009, 28 U.S.C. § 636(b)(1) was amended
to extend the period to fourteen days.

End of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

37 of 37

•„7 r-1
v H Thomson Barrens
Thomson Reuters id'-nofproviding legal advice

10/5/20, 7:59 PM

